<html>
<title> - GROWING JOBS AND ECONOMIC OPPORTUNITY: PERSPECTIVES ON THE 2018 FARM BILL FROM MICHIGAN</title>
<body><pre>[Senate Hearing 115-170]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-170

                            GROWING JOBS AND
                         ECONOMIC OPPORTUNITY:
                          PERSPECTIVES ON THE
                      2018 FARM BILL FROM MICHIGAN

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION


                               __________

                             MAY 6, 2017

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
          


       Available via the World Wide Web: http://www.govinfo.gov/


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-498 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>                


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
JONI ERNST, Iowa                     MICHAEL BENNET, Colorado
CHARLES GRASSLEY, Iowa               KIRSTEN GILLIBRAND, New York
JOHN THUNE, South Dakota             JOE DONNELLY, Indiana
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
LUTHER STRANGE, Alabama              CHRIS VAN HOLLEN, Maryland

             James A. Glueck, Jr., Majority Staff Director

                Anne C. Hazlett, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

               Joseph A. Shultz, Minority Staff Director

               Mary Beth Schultz, Minority Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Field Hearing(s):

Growing Jobs and Economic Opportunity: Perspectives on the 2018 
  Farm Bill from Michigan........................................     1

                              ----------                              

                         Saturday, May 6, 2017
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     6
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                             Welcome Panel

Hendrick, Ronald, Dean, Michigan State University College of 
  Agriculture and Natural Resources, East Lansing, MI............     2

                                Panel I

Fritz, Janna, JDF Farms, LLC, Bad Axe, MI........................     9
Alpers, Chris, RedPath Orchards and Alpers Farms, Lake Leelanau, 
  MI.............................................................    11
Gerstenberger, Rick, Gerstenberger Farms Inc., Snover, MI........    13
Siemen, Darrin, Prime Land Farm, Harbor Beach, MI................    14
Snider, Andy, Snider Farms, LLC, Hart, MI........................    15
Williams, David, W Farms, LLC, Elsie, MI.........................    17
Adam, Ingrao, Bee Wise Farms, Lansing, MI........................    19
Miller, Pam Bouma, Hopyards of Kent, Greenville, MI..............    20

                                Panel II

Hesterman, Oran, President and Chief Executive Officer, Fair Food 
  Network, Ann Arbor, MI.........................................    31
Watson, Faith, Montcalm County SNAP Recipient, Greenville, MI....    33
Nugent, Jim, Fruit Grower and Chairman, Michigan Tree Fruit 
  Commission, Suttons Bay, MI....................................    34
Rorah, Kyle, Great Lakes & Atlantic Region Policy Specialist, 
  Ducks Unlimited, Ann Arbor, MI.................................    36
Hebron, Jerry Ann, Farmer and Executive Director, Northend 
  Christian CDC, Detroit, MI.....................................    37
Thompson, Collin, Manager, Michigan State University, USDA 
  Organic Certified North Farm, Chatham, MI......................    39
Matson, Kristen, Inventory & Planning Specialist, Michigan 
  Department of Natural Resources Forestry Division, Shingleton, 
  MI.............................................................    40
Hance, Bob, President and Chief Executive Officer, Midwest Energy 
  Cooperative, Cassopolis, MI....................................    42
                              ----------                              

                                APPENDIX

Prepared Statements:
    Alpers, Chris................................................    50
    Fritz, Janna.................................................    56
    Gerstenberger, Rick..........................................    59
    Hance, Bob...................................................    77
    Hebron, Jerry Ann............................................    81
    Hendrick, Ronald.............................................    85
    Hesterman, Oran..............................................    89
    Ingrao, Adam.................................................    96
    Matson, Kristen..............................................   105
    Miller, Pam Bouma............................................   111
    Nugent, Jim..................................................   113
    Rorah, Kyle..................................................   115
    Siemen, Darrin...............................................   118
    Snider, Andy.................................................   128
    Thompson, Collin.............................................   134
    Watson, Faith................................................   138
    Williams, David..............................................   142
Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    ``Good Agricultural Practices and Good Handling Practices 
      Audit Verification Program''...............................   148
Hance, Bob:
    ``The Need for Better Broadband in Rural America''...........   185
Miller, Pam Bouma:
    Specialty Crop Block Grants..................................   187
    Export Opportunity Analysis..................................   194
    Pictures submitted for the Record............................   206
Snider, Andy:
    Animal Agriculture Commission, letter of support.............   217
Question and Answer:
Alpers, Chris:
    Written response to questions from Hon. Pat Roberts..........   222
Fritz, Janna:
    Written response to questions from Hon. Pat Roberts..........   224
Gerstenberger, Rick:
    Written response to questions from Hon. Pat Roberts..........   225
Hance, Bob:
    Written response to questions from Hon. Pat Roberts..........   226
Ingrao, Adam:
    Written response to questions from Hon. Pat Roberts..........   227
Matson, Kristen:
    Written response to questions from Hon. Pat Roberts..........   229
Miller, Pam Bouma:
    Written response to questions from Hon. Pat Roberts..........   230
Rorah, Kyle:
    Written response to questions from Hon. Pat Roberts..........   231
Siemen, Darrin:
    Written response to questions from Hon. Pat Roberts..........   233
Snider, Andy:
    Written response to questions from Hon. Pat Roberts..........   234
Williams, David:
    Written response to questions from Hon. Pat Roberts..........   236


 
                            GROWING JOBS AND
                          ECONOMIC OPPORTUNITY:
                          PERSPECTIVES ON THE
                      2018 FARM BILL FROM MICHIGAN

                         Saturday, May 6, 2017

      Saginaw Valley Research and Extension Center,
                                 Michigan State University,
                                                    Frankenmuth, MI
    The Committee met, pursuant to notice, at 10:06 a.m., 
Eastern Time, at the Saginaw Valley Research and Extension 
Center, Michigan State University, 3775 S. Reese Road, 
Frankenmuth, Michigan, Hon. Pat Roberts, Chairman of the 
Committee, presiding.
    Present: Senators Roberts and Stabenow.
    Chairman Roberts. Good morning. I call this hearing of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order. Senator Stabenow, ladies and gentlemen on the panels, 
others here in the room, and those watching across the country, 
welcome to the Committee's second hearing on the next farm 
bill.
    We started the journey to a successful and timely upcoming 
farm bill in Manhattan, Kansas--the Little Apple, home of the 
ever optimistic and fighting Wildcats--several weeks ago, and 
we continue that listening process here in Michigan today.
    I am very proud to welcome my partner, Senator and former 
Chairwoman Debbie Stabenow. We are colleagues, we are friends. 
I am grateful to her for inviting us back to Michigan, and we 
will again work together to craft a new farm bill. We have done 
it before; we can do it again.
    Before we offer our opening remarks, we will hear a welcome 
from the distinguished Dean of Michigan State's College of 
Agriculture and Natural Resources. I now turn to Senator 
Stabenow for her introduction, and then we will turn it over to 
you, Dr. Hendrick, for your remarks.
    Senator Stabenow. Well, thank you so much, Mr. Chairman.
    First, to everyone here, we need to recognize the fact that 
Senator Roberts is the only Chair of the Senate Agriculture 
Committee who has also been Chair of the House Agriculture 
Committee. So welcome to Michigan. We are glad to have you.
    [Applause.]
    Senator Stabenow. I am so pleased to introduce the dean of 
my alma mater's College of Agriculture and Natural Resources, 
Dr. Ronald Hendrick. Dean Hendrick holds both his bachelor's 
and doctorate degrees from Michigan State University. Prior to 
his current role at MSU, he served as interim dean for the 
College of Food, Agriculture, and Environmental Science at Ohio 
State. We will not hold that against you.
    [Laughter.]
    Senator Stabenow. He saw the light and came home. So, 
again, welcome and thank you so much for sharing your time and 
your remarks with us today.

  STATEMENT OF RONALD L. HENDRICK, PH.D., PROFESSOR AND DEAN, 
 MICHIGAN STATE UNIVERSITY COLLEGE OF AGRICULTURE AND NATURAL 
               RESOURCES, EAST LANSING, MICHIGAN

    Mr. Hendrick. Thank you. Chairman Roberts, Ranking Member 
Stabenow, members of the Michigan agriculture community, on 
behalf of Michigan State University, I would like to welcome 
all of you to the MSU Saginaw Valley Research and Extension 
Center and today's Senate Agriculture, Nutrition, and Forestry 
Committee field hearing, where we will highlight growing jobs 
and economic opportunity. We are all honored that the Committee 
has chosen to hold this hearing on issues important to 
Michigan's agricultural community here in Saginaw Valley.
    I would like to begin by acknowledging our venue. This 
center has served farmers in the Saginaw Valley since the early 
20th century. Here our MSU researchers and area farmers work on 
increasing productivity, profitability, and sustainability. 
With much of Michigan's sugar beet and dry bean production 
located in this part of the State, it makes sense for MSU to 
meet growers where they are. We in turn have been generously 
supported by both industries, as evidenced by this new 
facility.
    I serve as dean of the College of Agriculture and Natural 
Resources, and while I consider myself relatively new to the 
university, I am indeed a two-time alumnus, so my return is a 
bit of a homecoming for me.
    Michigan State University was founded in 1855 on the land-
grant missions of teaching, research, and outreach. As dean, I 
oversee the college, MSU Extension, and MSU AgBioResearch, the 
entities that serve those mission areas.
    While that mission, the founding mission, is well over a 
century old, it is relevant just as much today as it was in 
1855. It is our charge to pivot, to adapt, and to provide 
leadership in areas of food, energy, and environment. It is 
work we take very seriously, and you will hear today from 
people who have been impacted by the work that we do.
    There are more voices today, though, that you will not 
hear. I think about those we serve daily, our constituents, as 
people who woke up this morning with access to nutritious 
breakfasts and clean water and a clean environment, but also 
those who did not, and their voices matter in this conversation 
as well.
    There is perhaps no greater time to be involved in research 
pertaining to sustainable and nutritious food production. The 
world's population is growing by about 80 million people a 
year. That is expected to continue for decades into the future. 
In our country, the USDA estimates that 13.1 million children 
are living in homes with insufficient food, while at the same 
time children are being diagnosed with Type 2 diabetes at an 
ever-increasing rate.
    MSU remains committed to discovering practical, adoptable 
solutions that address these and other serious issues. It is 
through research and outreach that these answers will continue 
to be unearthed, shared, and put into practice at home and 
around the globe. Our research in the areas of food, energy, 
and environment happens broadly across campus, across the 
State, and around the world because we do not approach and 
solve problems in a vacuum.
    Solutions to crisis issues like clean water and nutritious 
and abundant food mean not only providing and growing food and 
water, but understanding human behavior and the challenges that 
face people across the country and around the world. We cannot 
just grow more nutritious food and provide clean water; we also 
need to find ways to distribute those and understand the 
importance of both.
    As folks in this room are keenly aware, we all need to 
better communicate about the economics of food and agriculture 
so that people from all walks of life understand the vitality 
of the food and agriculture industry. To that end, MSU works 
hand in hand with community organizations to address issues 
facing growers and producers throughout the State, focusing on 
solutions for everything from disease management to food 
processing.
    As you know, MSU researchers received nearly $40 million in 
USDA grant funding in 2016, which puts us in the top five 
agricultural research institutions in America. We are very 
proud of this accomplishment, and we are also very grateful for 
the Federal investment in that.
    The only thing about this kind of work that we can say is 
that there is always more to do. There is pent-up demand for 
additional capacity for research, for outreach, and for 
teaching. MSU and the Nation's other land-grant colleges stand 
ready to do our part in feeding growing populations with 
healthy, nutritious food and improving the economic climate for 
the food and agriculture industry.
    Again, I want to thank everyone gathered with us today. We 
want to wish you a warm welcome to Saginaw Valley, and I look 
forward to a robust hearing. Thank you.
    [The prepared statement of Mr. Hendrick can be found on 
page 85 in the appendix.]
    Senator Stabenow. Thank you, Dr. Hendrick. Thank you.
    [Applause.]
    Chairman Roberts. I now recognize the distinguished Senator 
from Michigan, Deborah Stabenow, for her opening remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you so much, Mr. Chairman, 
and I think we also want to invite our witnesses to come up who 
will be speaking. We are so glad to have witnesses who have 
been willing to take their time this weekend to join us for 
this important hearing, showcasing the breadth and diversity of 
Michigan in this process. So thank you so much.
    I want to thank the Chairman again for once again making 
the trip to our beautiful State. We did this before for the 
last farm bill. We were on Michigan State University campus. 
Now we are out in the middle of farmland, which is only 
appropriate. I appreciate very much, Mr. Chairman, your 
spending time with some of our amazing agriculture, 
conservation, and local food leaders.
    Mr. Chairman, I know that Kansas farmers have had a rough 
start to the year, with both wildfires and more recently a 
late-season blizzard that decimated your wheat crop. I am 
pleased that just a few minutes ago we were able to join some 
of our very generous Michigan farmers who stepped up to donate 
their time and resources. We are so very proud of them. These 
people understand what it is like to care about one another and 
be part of an extended family called farmers. We had members 
that delivered hay to Kansas as well as other supplies to help 
after the devastating wildfires earlier this spring.
    I know you heard from our Michigan farmers that we support 
Kansas farmers. Whether it is a wildfire or a late frost in 
Kansas, or a warm winter and a hailstorm in Michigan, or what 
may be happening on the western side of the State this weekend 
with our fruit growers farmers more than anyone else know the 
danger that weather changes pose.
    We are glad to be part of your extended farm family. In 
fact, as I already said, agriculture is the riskiest business 
there is. Nobody else has to depend on the weather report for 
their success. But farmers also have grit and determination and 
passion for what they do, and for that we all should be very 
grateful.
    Mr. Chairman, I know that you and I and our Senate 
Committee will follow the example of these farmers and keep all 
of agriculture working together so that we can continue 
building our farm bill coalition and pass a 2018 Farm Bill. 
Everyone who is here today understands how important the farm 
bill is to Michigan. But many people outside of agriculture do 
not understand how critical it is to our economy.
    I have always said we do not have an economy unless we make 
things and grows things, and the farm bill plays an important 
role in doing that. The food and agriculture economy supports 
16 million jobs across our country, and here in Michigan, 
agriculture is our State's second largest industry supporting 
one out of every four jobs.
    We last passed a farm bill in 2014, signed by President 
Obama right here in Michigan. I made sure that Michigan was 
reflected on every page. The bill made responsible, bipartisan 
reforms to streamline more than 100 programs and save taxpayers 
billions more than we expected.
    The bill goes a long way to support Michigan families who 
have been growing food for many generations through expanded 
crop insurance, but also creates new opportunities for 
beginning farmers to enter the field, including our veterans. 
It helps our $720 million specialty crop industry access 
stronger risk management tools to protect their crops from 
future disasters. It connects our producers to new markets to 
sell locally to their neighbors or around the world. It 
invigorates the economies of small towns and rural communities 
through bio-based manufacturing and upgraded infrastructure. It 
helps to put food on the table for families who have fallen on 
hard times.
    It brings tourism dollars to our State through significant 
investments in conservation that protects our Great Lakes and 
waterways. It supports cutting-edge research like we have right 
here to advance and safeguard our food and agriculture economy. 
The ground-breaking work that is happening right here at MSU 
Extension is one important example.
    Congress considers the farm bill only once every 5 years, 
and the 2014 Farm Bill that has done so much for our State is 
set to expire next fall. Just as in the last bill, Michigan 
will continue to have a voice in the farm bill process from 
start to finish.
    Going into the 2018 Farm Bill, we know things have changed 
over the last few years. Low prices have pinched margins and 
made it tough for many producers to make ends meet. Right off 
the bat, we know we need to strengthen our farm safety net, 
particularly for us in Michigan, our dairy farmers.
    Throughout the process, I will again be focused on the 
needs of Michigan producers and our State's small towns and 
small communities, like my hometown of Clare. The Congressional 
Budget Office estimates that the farm bill will save $80 
billion more than we had expected because of the policies in 
place and primarily because the economy is getting better and 
fewer people need temporary food assistance.
    We know the farm bill has done more than its fair share to 
reduce the deficit. Any further cuts would be detrimental to 
farmers and families. That is why over 500 groups, including 
some of the groups represented here today, agree we should not 
be making new cuts to the farm bill.
    Writing a farm bill is no simple task, and we certainly 
cannot do it alone, which is why we are here today. Throughout 
the hearing, we will hear from a wide variety of witnesses who 
reflect our State's unique food and farm economy. Believe it or 
not, many people outside of Michigan do not think of us as a 
farm State, but we know better. We in Michigan take great pride 
in our agricultural diversity. If you grew up eating chocolate-
covered cherries at the Cherry Festival, or picking from the 
wide variety of fruits and vegetables our farmers markets have 
to offer or driving along the highways flanked by sugar beet, 
corn, dry bean, soybean fields, and so much more, you know what 
our State is capable of growing.
    Michigan is the second most diverse State in the country in 
terms of what we grow, and the strength of our agriculture 
economy is rooted in that diversity. We were able to make sure 
Michigan agriculture was strongly represented in the last farm 
bill thanks to the support and input we received, and the broad 
coalition that came together to support our comprehensive, 
bipartisan bill. In order to ensure Michigan continues to have 
a strong voice in the process, we will need to continue that 
tradition of working together to support our jobs, our farmers, 
and our families. I am confident we can achieve that goal.
    Thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator Stabenow, for an 
excellent statement.
    Ladies and gentlemen, it is great to be back in Michigan 
today.
    [Laughter.]
    Senator Stabenow. Go green.
    Chairman Roberts. We made her wear purple at K-State.
    Senator Stabenow. I did.
    [Laughter.]

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
 KANSAS, CHAIRMAN OF THE COMMITTEE ON AGRICULTURE, NUTRITION, 
                          AND FORESTRY

    Chairman Roberts. Before we get started, I want to 
recognize and thank several Michigan farmers, ranchers, and 
other citizens, as well as the director of the Michigan 
Department of Agriculture and Rural Development, Jamie Clover 
Adams. As has been said by Senator Stabenow and many of you, 
you surely have heard that, in March, Kansas farmers and 
ranchers were hit by the largest prairie fire on private land 
in our State's history, and we think perhaps in our country, 
with over 750,000 acres, and thousands of cattle euthanized.
    Folks back home lost their homes, their cattle, their 
facilities, their fencing, their livelihoods, but they did not 
lose their future. Many producers in Michigan and elsewhere all 
throughout the country stepped up to help with recovery 
efforts, raising private funds, sending hay and materials to 
rebuild, and other assistance to Kansas. For that, we are 
extremely, extremely grateful.
    These generous activities illustrate the can-do attitude 
and the bootstrap mentality that makes rural America so 
special, regardless if you call Kansas or Michigan or any other 
State home. Just as we did during our recent visit to Kansas, 
it is important for us to get out of Washington--it is always 
pleasant to get out of Washington--to hear directly from folks 
about the farm bill where it matters most: on our farms, 
ranches, businesses, and communities all across the country.
    Our producers, agribusiness, and our rural communities are 
the ones who signed up for the programs. They comply with all 
the regulations and feel the pain firsthand of overburdensome 
or undersupportive policies. Year after year, America's farmers 
and ranchers overcome drought, disease, floods, fires, freezes, 
tornadoes, embargoes, and even their own Government to produce 
the safest, most abundant, affordable food and fiber supply the 
world has ever known.
    Your experience, your story, is what we need to hear before 
we start writing a new farm bill. I think you know that passing 
a new bill will not be easy. That is the understatement of the 
morning. That is why your help in crafting a bill that meets 
the needs of producers across all regions and all crops is 
absolutely necessary. Note that I said ``all regions and all 
crops.''
    All of agriculture today is in a rough patch. We are 
struggling, not just one or two commodities. During the last 
farm bill debate, the agriculture sector enjoyed high prices. 
Now we face multiple years of low prices across the board.
    Senator Stabenow and I are working to make Washington 
understand the differences between the economic conditions then 
and what we are facing now. You all understand that. Washington 
needs to as well.
    So to those who say passing a farm bill in this environment 
is a daunting task, I say, okay, but together we can get it 
done. We have done it before. We will do it again. We must 
embrace the attitude of our producers: optimism and ingenuity. 
A farmer plants a seed believing in a good harvest.
    At the same time, our Government is spending money it does 
not have. That is no surprise to anybody in the room. Our 
national debt exceeds $19 trillion. That is a ``T''--trillion. 
Put 19 and then you put 12 zeroes. My staff and I counted them.
    [Laughter.]
    Chairman Roberts. That is so enormous that it is hard to 
get your hands around it.
    Agriculture, and specifically the farm bill, has 
consistently answered the call to do more with less. That is 
what we do. The last farm bill voluntarily cut spending. The 
previous crop insurance contract for the Agriculture Department 
cut--I do not even like remembering this--$6 billion from the 
program. There was going to be another $3 billion in the 
continuing resolution, but we stopped that. I could go on and 
on where ag has already given at the store.
    Farmers and ranchers and rural families understand fiscal 
responsibility. That is what we are all about. Therefore, we 
must be judicious with the scarce resources that we have. We 
must ensure programs accomplish their fundamental purposes. We 
must ask tough questions and re-examine programs to determine 
their effectiveness. Now is the time to examine the core 
mission of USDA programs to ensure they are operating as 
intended, and if they are not, then we must refocus. We need 
bold thinking and new ideas to address today's challenges 
during these tough economic times.
    Now, Dr. Hendrick said it very well. Let us not forget that 
the global population is rapidly approaching 9 billion people. 
Agriculture production will need to double in the near future 
to meet the increased demand over the next couple of decades. 
Accomplishing this task requires efficiency, not just on the 
farm and the ranch but certainly, most certainly, in our United 
States Government.
    Feeding an increasing global population is not simply an 
agriculture challenge. It is a national security challenge. 
Show me a country that cannot feed itself, and I will show you 
a nation in chaos. This means we need to grow more and raise 
more with fewer resources. That is going to take research, new 
technology, lines of credit, and proper risk management. It 
takes the Government providing an adequate safety net and then 
getting out of the producers' way.
    So that is why we are here today, to hear from the entire 
value chain of agriculture on what is working, what is not, and 
how we can improve. I want to thank all of our witnesses for 
taking the time out of your valuable schedule to provide your 
advice and your perspective. Thank you to those in the audience 
for being here as well.
    Now, for those of you who want to provide additional 
thoughts on the farm bill, we have set up an email address on 
the Senate Ag Committee's website to collect your input into 
the farm bill discussion. You are not going to believe that I 
am up to this task to really get up to speed with technology in 
that you still claim I use carbon paper.
    [Laughter.]
    Chairman Roberts. But please go to ag.senate.gov. That is 
very easy to remember, ag.senate.gov. Then you click on the 
farm bill hearing box--my kids are not going to believe this--
on the left-hand side of the screen.
    Let me do that again: ag.senate.gov, click on the farm bill 
hearing box on the left side of the screen. Then you can send 
us your own input--just be nice, watch the adjectives, watch 
the adverbs--for the Committee to consider as we write the next 
farm bill. That link will be open for 5 business days following 
today's hearing.
    I now turn to Senator Stabenow to introduce our first panel 
of witnesses. We look forward to your testimony. Unfortunately, 
we are asking you to limit your remarks to 4 minutes. When we 
get to 4 minutes and 30 seconds, you will hear this [tapping]. 
That is a very gentle tap. You get to 5 minutes, we will take 
you to Dodge City, and you will never be----
    [Laughter.]
    Chairman Roberts. You will never be heard of again. Senator 
Stabenow.
    Senator Stabenow. Well, thank you, Mr. Chairman. I am so 
glad to be able to introduce our witnesses. I should also tell 
you we are tweeting, and someday I will explain what that is to 
you.
    [Laughter.]
    Senator Stabenow. We actually have a Twitter account that 
we are doing now.
    Chairman Roberts. I think I know a man that could help me.
    [Laughter/applause.]
    Senator Stabenow. Okay. He is coming along.
    We have a great group of producers today from all across 
the State representing the diversity that we all know is with 
us, and so welcome to all of you. I will introduce everybody, 
and then we will start with the testimony.
    To kick off the first panel, we have Mrs. Janna Fritz of 
JDF Farms in Bad Axe, not too far from here. Alongside her 
recently, Mrs. Fritz farms--say that three times--1,200 acres 
of corn, soybeans, and edible dry beans. Off the farm, she is a 
district sales manager for a seed company. Mrs. Fritz serves on 
the Board of Directors for the Michigan Corn Growers 
Association, and she received the Michigan Farm Bureau's Young 
Agricultural Leader Award in 2015.
    Next on our panel is Mr. Chris Alpers. Mr. Alpers is a 
third-generation apple and cherry grower from Lake Leelanau. He 
currently serves on the U.S. Apple Board of Directors and 
Executive Committee as well as the Cherry Growers Processing 
Board of Directors. Mr. Alpers and his father own Red Path 
Orchard and Alpers Farms, consisting of 1,000 acres of tart 
cherries, sweet cherries, and apples.
    Along with us today also is Mr. Rick Gerstenberger, a 
second-generation farmer with his two sons, Gerstenberger Farms 
in Snover, Michigan, where they farm almost 2,900 acres of 
sugar beets, corn, soybeans, wheat, alfalfa, and occasionally 
dry beans. Mr. Gerstenberger serves as chairman of the board of 
the Michigan Sugar Company and is also the vice president of 
the American Sugar Beet Growers Association.
    Next on our panel is a fourth-generation farmer, Mr. Darrin 
Siemen of Harbor Beach. Mr. Siemen owns and operates Prime Land 
Farm along with his wife and three children. Their centennial 
farm includes 320 dairy cows, 800 beef cattle, as well as corn, 
sugar beets, alfalfa, and wheat. Mr. Siemen is the past 
president of the Huron County Farm Bureau, and in 2016, he and 
his wife were named the Outstanding Young Dairy Cooperatives by 
the Michigan Milk Producers. I want to also note that both Mr. 
Siemen and his wife are Spartans. Go green.
    Up next is Mr. Andy Snider, owner of Snider Farms in Hart, 
where he and his family raise turkeys, hogs, corn, and 
soybeans. Mr. Snider is a co-founder of the Michigan Turkey 
Producers Cooperative, sits on the Executive Council of Land 
O'Lakes Cooperative, and serves on the Board of Directors for 
GreenStone Farm Credit Services.
    I would like to welcome Mr. David Williams next. Mr. 
Williams is a fifth-generation farmer in Elsie, another 
Spartan. He is an active member of the Shiawassee Conservation 
District and the Michigan Farm Bureau. Mr. Williams serves as 
district director and president of the Michigan Soybean 
Association and also represents Michigan on the United Soybean 
Board.
    Along with us also today is Mr. Adam Ingrao. Mr. Ingrao is 
a fourth-generation U.S. Army soldier--thank you for your 
service--who served honorably following the 9/11 attacks as a 
Patriot missile fire controller. He is a beekeeper in Lansing 
and serves as the vice president of Michigan Food and Farming 
Systems, co-director of the Michigan Veterans in Agriculture 
Network, and is the co-founder of the Michigan Farmer Veteran 
Coalition. Mr. Ingrao is also a Ph.D. candidate in the 
Department of Entomology at Michigan State University.
    One of the things I am so proud that we did in the last 
farm bill is add extra support for farmers that are veterans, 
so thank you so much for organizing the Michigan Coalition.
    Concluding our first panel is Mrs. Pam Bouma Miller. Mrs. 
Miller is the owner and partner of Hopyards of Kent County in 
Greenville, Michigan. She is a founding board member of Hop 
Growers of Michigan and has quickly become an expert and a 
leader in this growing market.
    Welcome to all of you, and we look forward to your 
testimony.
    Did I miss someone here?
    Chairman Roberts. I do not think so.
    Senator Stabenow. I got everybody, okay. Good. Great. I am 
sorry. Mrs. Fritz.
    Chairman Roberts. Mrs. Fritz, you are recognized.
    Senator Stabenow. Mrs. Fritz, yes.

 STATEMENT OF JANNA FRITZ, JDF FARMS, LLC, BAD AXE, MICHIGAN, 
   AND SECRETARY/TREASURER, MICHIGAN CORN GROWERS ASSOCIATION

    Mrs. Fritz. Thank you. Good morning, Chairman Roberts, 
Ranking Member Stabenow. On behalf of my family farm and the 
Michigan Corn Growers Association, I want to thank you for the 
opportunity to testify and share a few thoughts on the farm 
bill.
    My name is Janna Fritz. I am married to a fifth-generation 
farmer. My husband, Joel, and I have two sons, Wesley and 
Zachary, and we farm 1,200 acres of corn, soybeans, and edible 
dry beans. I did not grow up on a farm, but I have come to love 
it because it is a great environment to raise a family. 
American farmers are some of the most honest, hardworking, 
compassionate people I have ever had the pleasure to know. 
Their ability to grow food, fuel, and fiber for the world is 
truly an inspiration to me. In addition to working on the farm, 
I also am a sales representative for a seed company that puts 
me in touch with farmers throughout the Thumb region.
    In addition to the family farm, I serve as the Secretary/
Treasurer of the Michigan Corn Growers Association. Michigan's 
corn growers are innovative and efficient at producing corn in 
a sustainable manner. Corn farmers produce more bushels on 
fewer acres with fewer inputs than ever before. Farmers are 
deeply committed to environmental sustainability and are 
utilizing conservation programs like the Environmental Quality 
Incentives Program and the Conservation Stewardship Program.
    On our own farm, we have implemented a number of 
sustainability practices. We sample our soils and tailor our 
nutrient applications and only apply what our crop needs. We 
also use cover crops and no-till or minimum tillage to protect 
the soils.
    Corn farmers have seen a drastic drop in corn prices over 
the past several years. Corn prices are at or below their cost 
of production. Low prices mean lower revenues for farmers, 
lower net incomes for Michigan farm families, and increasing 
stress for farm operations, their employees, and our rural 
communities. In this environment, a strong farm safety net is 
critical for Michigan farmers.
    Fundamentally, the safety net in the 2014 Farm Bill under 
then-Chairwoman Stabenow worked well for farmers like myself 
and my neighbors. The combination of crop insurance and the 
commodity safety net have been helpful in offsetting 
significant revenue losses in recent years. The county-level 
agricultural risk coverage, in particular, remains a high 
priority for our growers. We believe the program has performed 
as it was intended and is making sure that farmers have 
assistance when it is needed.
    There are, however, like with any new program, some areas 
where improvements could be made in the new farm bill, and my 
written testimony has some of those suggestions.
    Along with a strong safety net, market development is 
critical to drive increased demand for corn and corn products. 
Trade and export development are consistently ranked as a top 
priority by MCGA members, and exports account for close to 30 
percent of U.S. corn farmers' income.
    I saw the potential opportunities from trade firsthand as 
part of an official trade mission to China last year. To 
continue on trade, USDA's Market Access Program and the Foreign 
Market Development Program continue to be extremely valuable in 
growing new overseas markets for agriculture. These private-
public partnerships deliver a return on investment of $28 in 
exports for every dollar that we invest. MCGA supports 
increasing the funding for these programs to even further boost 
their effectiveness.
    At the same time we are growing markets abroad, there are 
important policies that support domestic markets such as 
renewable fuels. Michigan is home to five ethanol plants that 
produce clean-burning biofuels from Michigan-grown corn. 
Continued support of the Renewable Fuel Standard and other 
market access programs for biofuels will be more important than 
ever before to ever increase our demand.
    It is hard to understate the importance of the 2014 Farm 
Bill to Michigan's farm families as we have weathered 
tremendous economic challenges over the past few years. Thank 
you for your work and for this opportunity, and I look forward 
to answering your questions.
    [The prepared statement of Mrs. Fritz can be found on page 
56 in the appendix.]
    Chairman Roberts. Thank you very much. I appreciate your 
statement.
    Mrs. Fritz. Thank you.
    Chairman Roberts. We will be asking you questions about 
your written testimony and how we can improve crop insurance.
    Mr. Alpers, you are recognized, sir.

  STATEMENT OF CHRIS ALPERS, REDPATH ORCHARDS, LAKE LEELANAU, 
                            MICHIGAN

    Mr. Alpers. Good morning, Chairman Roberts, Ranking Member 
Stabenow. Thank you for the opportunity to speak today. As 
mentioned before, my father and I manage/own Redpath Orchards 
and Alpers Farms, consisting of 1,000 acres of tart cherries, 
sweet cherries, and apples. The business was established in 
1959 by my grandfather.
    My wife, also a grower, is a sixth-generation tree fruit 
grower, and she and I hope to leave our family farm, poised for 
success, for maybe our 4-month-old son, Raymond, should he 
choose to carry out the family farming legacy. We look forward 
to planting an apple tree this year with our son, grafted from 
a Red Delicious tree my wife's great-great-great-great-
grandfather planted on their family farm in Sparta, Michigan. 
That is seven generations.
    In addition to farming, my mother and I operate a business 
selling tree fruit nursery stock. We work with C&O Nursery--
owned and operated by the Snyder family since 1906--from 
Wenatchee, Washington. This is an example of how tree fruit 
growers across the country work together closely in order to 
put our industry forward.
    Apples are Michigan's largest, most valuable fruit crop and 
have a farm gate value of $245 million. Building on the success 
of the 2008 legislation, the current farm bill made a number of 
important strides toward each of these goals. I would like to 
touch on a few of them briefly.
    Export Programs: A strong export market is critical to the 
health of the apple industry. Nationally, about 30 percent of 
the crop is sold overseas. This leads me to this important 
point. I would like to take a quick second to mention the 
importance for protecting the provisions for agriculture in 
NAFTA. Mexico and Canada represent the two largest export 
markets for apples, totaling more than $450 million in sales 
last year. Disruption to these important markets would have a 
devastating impact on our entire industry.
    The apple industry also strongly supports the Market Access 
Program, which has helped level the playing field as it allows 
us to compete with countries that have a much lower cost of 
production, such as China and Chile.
    The MAP program is a public-private partnership, with 
growers contributing $2 for every Federal dollar the industry 
receives. Recent studies have shown a return on investment of 
24:1 for MAP.
    Crop Insurance: The apple industry is one of a handful of 
specialty crops that participates in the Federal crop insurance 
program. In fact, according to the USDA's Risk Management 
Agency, nearly 75 percent of the apple crop is insured.
    A risk management tool such as crop insurance allows 
producers like me to invest back into our own businesses, 
creating good jobs for the local community. Modern apple 
plantings cost upwards of $40,000 an acre before a single apple 
is harvested, sometimes 3 to 4 years later.
    This enormous startup cost scares many talented young 
entrepreneurs--and lending institutions--away from investing 
their talents--and capital--into the apple industry. I am 
thankful many producers and lenders recognize crop insurance as 
an important risk management tool.
    Without the ability to purchase a solid insurance policy 
and limit my exposure, I would not be able to justify investing 
my future into the apple business.
    I would be remiss to not point out that labor continues to 
be our number one issue on our farm, and I must say there is no 
insurance for no labor. A solution to this problem must come 
sooner than later. I have personally witnessed crops wasting 
away on trees because the producer was not able to secure a 
domestic workforce or there had been extreme delays in the H-2A 
program.
    Due to the lack of a viable domestic workforce, our farm is 
in the process of recruiting foreign guest workers for the 
upcoming 2017 cherry and apple harvest. Many producers in my 
area are being forced to do the same thing. My single greatest 
concern on our farm is having a steady workforce come harvest 
season.
    Again, thank you for allowing me the opportunity to be able 
to testify before this Committee, and I look forward to any 
questions you might have.
    [The prepared statement of Mr. Alpers can be found on page 
50 in the appendix.]
    Chairman Roberts. We thank you, Mr. Alpers.
    Let me get this right. Gestenberger, right?
    Mr. Gerstenberger. Gerstenberger.
    Chairman Roberts. Gerstenberger. I am on a slant.
    Senator Stabenow. I know. It is hard to see.
    Chairman Roberts. That helps. That helps a lot, gentlemen. 
We need the fifth-generation farmer. If you could slant your 
name, sir. Mr. Williams. All right. You are all in trouble now.
    [Laughter.]
    Chairman Roberts. Mr. Gerstenberger, thank you so much.

  STATEMENT OF RICK GERSTENBERGER, GERSTENBERGER FARMS, INC., 
  SNOVER, MICHIGAN, AND CHAIRMAN OF THE BOARD, MICHIGAN SUGAR 
                            COMPANY

    Mr. Gerstenberger. Okay. Thank you, Mr. Chairman and 
Ranking Member Stabenow. My name is Richard Gerstenberger, and 
I am testifying today on behalf of the Michigan Sugar Company.
    For the last 9 years, I have served as Chairman of the 
Board of Directors of the Michigan Sugar Company, which is a 
farmer-owned cooperative. I know the sugar business from the 
genetics in the seed to when the sugar arrives at the loading 
docks of our customers.
    When Congress looks at the sugar policy in the 2018 Farm 
Bill, there are seven key elements to consider: Support for 
U.S. sugar policy is support for our Nation's food security. 
Sugar is a strategic commodity in our Nation's food system. The 
Michigan sugar industry is a key supplier to Midwest markets, 
where 500 food manufacturers and retail businesses depend on 
reliable supplies of high-quality, safe sugar. A sugar policy's 
focus must put American beet and cane farmers' interests first.
    Support for U.S. sugar policy is support for responding to 
foreign unfair trade practices. American sugar farmers are 
among the lowest-cost producers in the world, but we cannot 
compete against foreign subsidies and predatory dumping 
practices that terribly distort world sugar markets.
    The recent damage to our industry caused by Mexican 
subsidies and dumping is a sad case in point. Our growers have 
lost billions in revenue. Some of our younger growers have 
already gone out of business, and today only 73 percent of our 
consumption is supplied by domestic production. Twenty years 
ago, 85 percent was supplied by domestic production. Growing 
dependence on foreign suppliers is an alarming trend that must 
be reversed.
    Support for U.S. sugar policy is support for fiscal 
responsibility. U.S. sugar producers have run at zero cost for 
the last 14 years. The only exception was in 2013 when Mexico 
dumped massive amounts of sugar in our market. USDA predicts we 
will be at zero cost for the next 10 years.
    Support for U.S. sugar policy is support for innovative and 
highly efficient American family farmers. U.S. producers are 
among the most efficient in the world because we have reduced 
costs by vertically integrating. We have formed cooperatives, 
and the growers now own all of the Nation's 22 beet factories.
    Adoption of modern biotechnology has raised beet sugar 
yields by 30 percent and dramatically reduced energy, chemical, 
and water use. Sugar beets are now one of the most sustainable 
crops in the country, if not the world. We support strong 
research in the next farm bill.
    Support for U.S. sugar policy is support for farming and 
manufacturing jobs in rural America. I want to thank Senator 
Stabenow for constantly reminding her colleagues and the Nation 
that agriculture is about jobs. The farm bill is about jobs. 
Our cooperative employs 2,400 workers and provides employment 
for 1,000 farm families and their workers. Nationally, the 
industry supports 142,000 jobs in 22 States. Many of these 
good-paying jobs represent the economic lifeblood of small 
towns throughout the region.
    Support for U.S. sugar policy is support for a stronger 
national economy. Michigan Sugar Company generates $1.5 billion 
in economic activity in the State of Michigan, and nationally, 
the sugar industry generates $20 billion in annual economic 
activity.
    Farmers are the original stewards of the land, and sugar 
farmers in Michigan strongly support voluntary conservation and 
widely adopt best conservation practices. But we also believe 
regulations should not overly burden farmers and would welcome 
the opportunity to work through concerns we have on wetlands 
and other issues.
    The beet sugar industry has been in Michigan for over 120 
years, and we plan to be here indefinitely. But our future 
depends on Congress passing strong sugar provisions in the 2018 
Farm Bill and the administration's implementation of that 
policy. We look forward to working with you in the months ahead 
to determine the modifications that are needed to ensure sugar 
growers in Michigan and beet and cane growers across the U.S. 
continue to survive and prosper.
    Thank you.
    [The prepared statement of Mr. Gerstenberger can be found 
on page 59 in the appendix.]
    Chairman Roberts. Thank you, sir.
    Mr. Siemen.

  STATEMENT OF DARRIN SIEMEN, PRIME LAND FARM, HARBOR BEACH, 
                            MICHIGAN

    Mr. Siemen. Good morning, Mr. Chairman and Ranking Member 
Stabenow. My name is Darrin Siemen. My wife and I own and 
operate Prime Land Farm in Harbor Beach, Michigan.
    We are a centennial farm, and I am a proud fourth-
generation dairy farmer. We milk 320 cows with LELY Robots. We 
raise about 800 beef cattle and farm 1,500 acres of sugar 
beets, alfalfa, corn, and wheat.
    I attended Michigan State University, where I met my wife, 
and we returned to the family farm in 2001. We assumed 
ownership in 2013. We have three children who are very 
passionate for our cows and farming.
    I am pleased to be delivering testimony on behalf of my 
cooperative, Michigan Milk Producers Association, and National 
Milk Producers Federation.
    In 2014, Congress passed legislation establishing a new 
safety net under Title I for dairy farmers known as the Margin 
Protection Program, MPP. During the legislative process, 
changes were made by Congress that fundamentally altered the 
safety net designed by NMPF and other dairy leaders around the 
country. Unfortunately as a result of these changes, MPP has 
failed to deliver the protection dairy farmers need and expect.
    MPP remains the right model for our future for dairy, but 
changes are needed if Congress wants to prevent farmers like 
myself from going out of business.
    In 2015, dairy farmers paid more than $70 million into the 
MPP program and received payments totaling only $730,000; in 
2016, those figures were $20 million and $13 million. I am not 
asking for a program that guarantees a profit, nor do I want a 
program that will incentivize excess production. However, MPP 
has actually made the Government a profit of $130 million in 
fiscal years 2015 and 2016, according to the Congressional 
Budget Office.
    In determining the margin under MPP, USDA is required to 
calculate two factors: the ``All Milk Price'' and feed costs. 
While the ``All Milk Price'' remains accurate, the feed price 
determination remains in question. The feed cost formula was 
cut by 10 percent in order to address broader budget concerns. 
These concerns regarding the budget costs that resulted in this 
10-percent arbitrary reduction were simply inaccurate, and this 
10 percent must be restored.
    Other adjustments that should be considered is the feed 
formula calculation as it relates to corn and alfalfa hay 
prices.
    Due to congressionally mandated restrictions in MPP, a 
dairy producer must decide at the beginning of the farm bill 
whether to cover their milk under the Livestock Gross Margin 
program or MPP, not both. With this restriction in place, dairy 
farmers are left without the benefit of all possible tools that 
other farmers have at their disposal regarding risk management 
for their operations.
    In addition, dairy farmers also remain concerned about 
challenges to our export markets, immigration, tax reform, 
child nutrition, and the environmental sustainability, and we 
look forward to working with the Committee to help address 
these challenges.
    I do want to publicly thank Senator Stabenow for her recent 
efforts to work with other Members of Congress and the 
administration to seek short-term solutions to help improve the 
safety net for dairy farmers. Also, a special thanks to both 
Senator Roberts and Senator Stabenow for their efforts to bring 
more milk options and flexibility to the School Lunch programs.
    Mr. Chairman and Ranking Member Stabenow, the dairy 
industry is committed to working with you to improve Federal 
policies that impact farmers like me as well as consumers. I 
appreciate the opportunity to speak with you today and thank 
you for your advocacy on behalf of agriculture.
    [The prepared statement of Mr. Siemen can be found on page 
118 in the appendix.]
    Chairman Roberts. We thank you very much. Thank you, Mr. 
Siemen.
    Andy Snider, you are up next.

 STATEMENT OF ANDY SNIDER, OWNER, SNIDER FARMS, HART, MICHIGAN

    Mr. Snider. Good morning, Chairman Roberts and Ranking 
Member Stabenow. Thank you for receiving my testimony as you 
work to develop the new farm bill. Snider Farms is a 
multigenerational family farm, currently run by my wife, Beth, 
and myself, along with our son, Zack, and his wife, Priscilla, 
and 11 dedicated employees.
    As you can see in my introduction, farm cooperatives are 
very important to us. Like most farm operations, we have run 
into challenges over the years. We experienced a catastrophic 
dairy barn fire in 1996 from which we moved forward with just 
hogs and turkeys as our focus.
    One year after the fire, we and other Michigan turkey 
contract growers for Sara Lee were informed that they were 
exiting the live turkey business immediately. Fifteen turkey 
producers, including myself, banded together to form Michigan 
Turkey Producers Co-op. We received assistance of the USDA 
Rural Development Loan Guarantee Program for the facility as 
well as a value-added producer grant for an expansion which 
allowed us to enter the ready-to-eat and cooked-product market. 
Today Michigan Turkey ensures economic viability for its member 
owners as well as economic well-being for hundreds of farm and 
plant employees across west-central Michigan.
    In serving on the GreenStone board, I see firsthand the 
benefits that our Farm Credit System provides to rural 
communities and farmers, such as extending credit and 
supporting rural infrastructure for ag producers to operate for 
generations. This farmer-owned credit cooperative is critical 
to maintain as well as preserving its GSE status.
    Growing up in Michigan, surrounded by the State's beautiful 
lakes, I understand the importance of being a good steward of 
our natural resources. The conservation ethic runs deep on my 
farm, and we have enrolled in State and Federal conservation 
programs like CSP that will help sustain the land and the water 
for our children and future grandchildren. Snider Farms has 
also utilized EQIP funding. As you prioritize conservation and 
with programs made available through the farm bill, we have put 
into practice many that have allowed us to expand in both 
environmental and economically sustainable ways.
    Since 2015, the poultry industry has made significant 
strides in recovering from highly pathogenic avian influenza 
after suffering through the worst animal disease outbreak in 
U.S. history. The road ahead remains long, and as an industry 
we will need renewed support from Congress to assist USDA and 
APHIS to reduce the long-term impacts. High-path AI is not 
going away overnight. It is a global problem, and the time is 
now to start an international discussion on eradication 
strategies for high-path AI, including the use of vaccines.
    As the Committee embarks on the reauthorization of the farm 
bill, the MTF and its turkey farmers will be joining many that 
rely on the animal agriculture in asking for the inclusion of a 
forward-looking, mandatory Animal Pest and Disease Disaster 
Prevention and Response Program to the farm bill.
    Additionally, I would like to submit for the record a 
letter signed by 67 agricultural organizations supporting this 
initiative.
    [The following information can be found on page 180 in the 
appendix.]
    Mr. Snider. One final point I would like to raise related 
to my operation, specifically the organic portion of the recent 
USDA rule on Organic Livestock Production Practices. The 
organic program has long been focused on sound organic 
production from an ingredients standpoint. This new rule 
dictating outdoor space requirements moves the goalpost in a 
significant way.
    The organic sector has been a bright spot for growth in 
Michigan. The new rule could put many committed organic 
producers out of business. Furthermore, this rule is in direct 
conflict with what producers are currently doing to avoid 
future high-path AI outbreaks.
    Chairman Roberts, Senator Stabenow, I ask you personally to 
contact Secretary Perdue in the next week and express how 
imperative it is that he delay the implementation of the rule 
before May 19th.
    I trust you see the passion I have as a farmer for the 
health of our land, the ability to produce profitable, safe, 
and abundant food for our country and the world, and for the 
privilege God has given me to raise my family and continue the 
proud heritage of farming. I thank you for the invitation to 
speak about these important issues as you consider 
reauthorization of the farm bill. I welcome any questions.
    [The prepared statement of Mr. Snider can be found on page 
128 in the appendix.]
    Chairman Roberts. Mr. Snider, we just had breakfast with 
Sonny Perdue here--was that 2 days ago?
    Senator Stabenow. Thursday.
    Chairman Roberts. Thursday. This man knows agriculture, and 
we have already announced changes in the School Lunch Program--
not changes. We just gave the nutritionist a little flexibility 
there, 1-percent milk--I am still holding out for whole milk--
and we will be delighted to ask the Secretary to delay that 
rule. That was the question I already had written out for you, 
but I wanted to respond very quickly.
    Mr. Snider. Thank you.
    Chairman Roberts. I would just make the observation on 
behalf of both of us that Sonny Perdue not only knows 
agriculture, he knows all of the rules around it, so on and so 
forth. He had enough time to study because of all the time that 
he had to sit there and wait.
    [Laughter.]
    Chairman Roberts. Mr. Williams, we look forward to your 
testimony, sir.

STATEMENT OF DAVID WILLIAMS, W FARMS, LLC, ELSIE, MICHIGAN, ON 
  BEHALF OF MICHIGAN SOYBEAN ASSOCIATION AND AMERICAN SOYBEAN 
                          ASSOCIATION

    Mr. Williams. Chairman Roberts, Ranking Member Stabenow, 
and Committee members, thank you for holding this hearing. I am 
pleased to provide testimony on behalf of both the Michigan and 
the American Soybean Associations. My nephew and I manage 3,500 
acres on our sesquicentennial farm on which we plant soybeans, 
corn, and winter wheat.
    My testimony today focuses on ASA's support for 
conservation and biobased programs. Conservation programs have 
been critical to the great strides American farmers have made 
in land conservation and sustainability. ASA strongly supports 
working lands conservation programs like the Conservation 
Stewardship Program, CSP, and the Environmental Quality 
Incentives Program, EQIP.
    I signed my first CSP contract and adopted the practice of 
seeding cover crops using a combination of oilseed radishes, 
oats and peas. Recently, I seeded cereal rye. I have seen 
firsthand that cover crops prevent soil erosion and improve 
water quality by reducing drainage rates.
    We chose cornstalk nitrate testing in our second contract 
period. This testing provides a good assessment that the crop 
is receiving the right amount of nitrogen in our corn crop.
    The cost sharing provided under EQIP helped us build a 
chemical and fertilizer containment facility which assisted in 
our compliance with Michigan State water quality regulations. 
This is a good example of how leveraging private investment 
with farm bill dollars leads to improved water quality for 
everyone.
    I would also like to highlight the importance and benefits 
of the farm bill Energy Title programs in supporting 
agriculture's role in the emerging bioeconomy. USDA's 2016 
economic impact analysis showed that the U.S. biobased products 
sector supported 4.2 million jobs, $127 billion in direct 
sales, and $393 billion in total value to the U.S. economy.
    The U.S. soybean industry and the Michigan soybean industry 
have made significant investments into research, product 
development, and promotion of biobased products. Michigan is a 
leader in the world bioeconomy thanks to a long history of 
innovation by companies like Ford and Lear and their 
collaboration with U.S. soybean growers. Every Ford car made in 
North America now contains soy in its seat cushions.
    The State of Michigan enacted procurement preference 
legislation last year that extends to 97 categories of biobased 
products identified by USDA, ranging from engine oils to carpet 
and cleaning supplies. Pictured Rocks National Lakeshore in 
Michigan has set an award-winning example to other State and 
Federal agencies on the performance and environmental benefits 
of biobased products.
    We appreciate the support of the Senate Agriculture 
Committee and the leadership of Senator Stabenow especially for 
three key farm bill Energy Title programs:
    The Biobased Market Program encompasses the Federal 
biobased procurement program and biobased products labeling 
program.
    The Bioenergy Program for Advanced Biofuels supports 
domestic producers of advanced biofuels and bioenergy derived 
from dairy farms and forest products.
    The Biodiesel Education Program supports technical outreach 
efforts to engine manufacturers, truckers, and fuel marketers 
which translates into increased use, more jobs, and more 
economic value in rural communities.
    While these programs do not have budget baselines going 
forward, we believe that their relatively low cost and the 
benefits they provide warrant their continuation in the 2018 
Farm Bill with an increased level of mandatory funding.
    We look forward to working with you on the development of a 
farm bill that maintains the income safety net for farmers and 
continues important Conservation and Energy Title programs.
    [The prepared statement of Mr. Williams can be found on 
page 142 in the appendix.]
    Chairman Roberts. Thank you, sir.
    Mr. Ingrao, as a U.S. Marine veteran, let me thank you one 
veteran to another for your service to this country. Army 
strong.
    Mr. Ingrao. Thank you, sir.
    Chairman Roberts. As you mention in your testimony--oh, 
that is a question I have got for you down the road, so we are 
just going to recognize you for your statement. It might be a 
good idea to hear your statement first before I ask you 
questions.
    [Laughter.]
    Mr. Ingrao. I appreciate that, Mr. Chairman.
    Chairman Roberts. But get ready.
    [Laughter.]

  STATEMENT OF ADAM INGRAO, BEE WISE FARMS, LANSING, MICHIGAN

    Mr. Ingrao. Thank you. Chairman Roberts and Ranking Member 
Stabenow, thank you for the opportunity to testify today. I am 
truly honored to be here.
    Within each of the areas that I work in here in Michigan, 
the programs funded by the 2014 Farm Bill have been 
instrumental in the success of the organizations I represent, 
the farmer veterans I work with, and the research I conduct at 
Michigan State University.
    When I returned home from the Army, I experienced a lot of 
the same challenges that my brothers and sisters face in coming 
to terms with being a disabled veteran, the sudden loss of 
camaraderie, the guilt of not being there to have the backs of 
your battle buddies, and the depression that comes along with 
all of this.
    But I found that a lot of what I was experiencing was 
alleviated by spending time working in my parents' garden. It 
was digging into the soil, caring for the plants, and observing 
and reconnecting the natural cycles of life that allowed me to 
heal both physically and mentally.
    Since this realization, I have dedicated my life to help my 
fellow veterans realize that farming can address not only the 
financial but also the personal wellness challenges that many 
of us face. These careers in agriculture also speak to our 
veterans who desire to continue to serve their country and 
community by producing healthy food.
    The 2014 Farm Bill has been critical in providing the 
educational, programmatic, and resource connections necessary 
for veterans to identify farming as an opportunity and make the 
transition to this career. For Michigan food and farming 
systems and the Veterans in Agriculture Network, the beginning 
farmer/rancher development program and the 2501 Program have 
been crucial in allowing us to develop the programs necessary 
to educate farmer veterans and develop a strong and resilient 
farmer veteran community here in Michigan. This work has 
allowed us to identify the challenges facing farmer veterans 
that limit their utilization of USDA resources and services, 
and we are now working directly with NRCS and FSA staff through 
cooperative agreements to develop USDA navigation services that 
include one-on-one, veteran-to-veteran consulting and advocacy 
in USDA offices.
    These connections have resulted in many success stories of 
veterans transitioning to successful careers here in 
agriculture in Michigan, and today I am going to share the 
story of a Marine, just like yourself, Chairman Roberts.
    Sergeant Jeremy Huffman, a U.S. Marine, served in 
Afghanistan, and he and his wife now run Huffman's Homestead in 
Swartz Creek. We have been working with them for about the last 
2 years in a one-on-one relationship to help develop their 10-
acre hobby farm into a farm that now offers a full Community 
Supported Agriculture Program and direct sales at two farmers 
markets, including the Flint Farmers Market. After using our 
USDA navigation services, he was awarded a high tunnel for 
season extension through the NRCS High Tunnel Program through 
EQIP. This has allowed him to increase production and develop 
new markets to sell his products. Additionally, Jeremy is also 
using the Double Up Food Bucks Program to reach the most 
vulnerable populations affected by the Flint water crisis by 
offering high-quality vegetables, fruit, and poultry to the 
children of Flint.
    The farm bill stands as a foundation of the support for 
American farms and our national prosperity. Through the 2018 
Farm Bill, it is my home that Congress realizes the importance 
of the programs created in the 2014 Farm Bill and builds upon 
them to invest in the training and success of beginning farmers 
and those looking to produce agricultural products in new and 
unconventional venues, like urban farming, all while 
recognizing the importance of new farmer demographics such as 
military veterans that have unique training that complements 
the work ethic, leadership, and commitment necessary to be 
successful in the agricultural industry.
    It is critical for Congress to build upon this progress to 
include new initiatives that continue to foster the growth and 
success of the next generation of American farmers by engaging 
and supporting these communities to feed the world.
    Thank you.
    [The prepared statement of Mr. Ingrao can be found on page 
96 in the appendix.]
    Chairman Roberts. We thank you for your statement, sir.
    Mrs. Miller.

STATEMENT OF PAM BOUMA MILLER, OWNER, HOPYARDS OF KENT COUNTY, 
                      GREENVILLE, MICHIGAN

    Mrs. Miller. Thank you, Chairman Roberts and Ranking Member 
Stabenow, for the opportunity to testify today. My name is Pam 
Bouma Miller, and I am the owner of Hopyards of Kent County and 
a founding board member of Hop Growers of Michigan. Hopyards of 
Kent was established in 2011 and is one of the largest family-
owned hops farms in Michigan. We are dedicated to consistently 
producing the highest-quality hops available, through hard 
work, teaching, training, and commitment to the hop industry. 
We also have a harvest center that opened in 2016 for our 
network of over 30 growers to bring in their yields to be 
picked, dried, baled, and passed on to the merchant for further 
processing and sales.
    Today Michigan is ranked fourth in the Nation with over 
1,000 acres in farm hop production. There are approximately 200 
growers supplying 400-plus breweries in our State alone. It is 
critical that the next farm bill protect and strengthen the 
Market Access Program, which is the key for specialty crop 
growers to access new international markets. Michigan accounts 
for 5 percent of the $252.6 million hop export market in the 
U.S. Last year, the Michigan hop industry used a specialty crop 
block grant to establish hop quality standards, provide 
education and training to growing and developing a two-level 
voluntary certification program. Value-added producer grants 
have been used to help hop farmers pelletize hops for sale and 
distribution. Specifically, the equipment to process and handle 
hops is highly specialized and extremely costly. Getting the 
equipment into the community of growers requires the use of 
grants.
    Continued funding for research, including the Specialty 
Crop Research Initiative, is critical to the future of the hop 
industry to control pests and disease like downy mildew. It is 
also important to recognize the unique opportunity the hop 
growers of Michigan are pursuing through a farm-to-glass bill 
to provide tax savings for the use of Michigan hops and 
Michigan beer.
    As the Michigan hop industry continues to expand, growers 
are looking at new market opportunities through trade 
expansion. Standardizing regulations for herbicide and 
pesticide use should be set at the national level. Research 
funds should also be used to develop new public varieties 
breeding programs at the university level.
    Michigan State University Extension are critical for 
support in every aspect of the science, planning, and 
management of this agriculture specialty commodity. In 
addition, the labor issues center on the lack of a reliable 
workforce, and this remains a big concern as hops are a very 
labor-intensive crop. The labor pool is dwindling fast.
    As part of the success of my farm is a special relationship 
and understanding with my financial partner. This is a capital-
intensive business, and its specialization demands dollars. 
GreenStone Farm Credit Services was there for me to the full 
extent they were able at the outset and remains an intricate 
part of my success as one of the first major hop farms in 
Michigan.
    The hops industry has grown 148 percent in the last 10 
years, and I look forward to being a part of the continued 
growth and development of this industry and the thousands of 
jobs that our industry supports in Michigan.
    Thank you for taking an interest in Michigan hops, and I am 
happy to answer any questions that you may have.
    [The prepared statement of Mrs. Miller can be found on page 
111 in the appendix.]
    Chairman Roberts. We thank all the witnesses. There are 
going to be two rounds of questions. Everybody out there just 
relax.
    The distinguished Senator from Michigan has just informed 
me that the next time I am in Michigan, I am to join her on a 
microbrewery tour.
    [Laughter/applause.]
    Chairman Roberts. She figures we can last 20.
    [Laughter.]
    Chairman Roberts. Sampling the products.
    You started in your statement, Mrs. Miller--I am going in 
reverse order. I do not want my staff to freak out here. But 
you stated in your testimony that you support how many 
breweries now?
    Mrs. Miller. In Michigan alone, 400-plus.
    Chairman Roberts. Four hundred. No wonder everybody is 
happy.
    [Laughter.]
    Mrs. Miller. We are known as ``Beer City, USA,'' yes.
    Chairman Roberts. We are going to have a hearing on 
pesticides, insecticides, fungicides, rodenticides, FIFRA, the 
Federal Insecticide, Fungicide, and Rodenticide Act, and we 
have some problems, and so we are going to try to fix them.
    Senator Stabenow. Mr. Chairman, I just want to make note 
that that does not include our wine.
    Mrs. Miller. This is true.
    Senator Stabenow. We will keep you going between beer and 
wine.
    [Laughter.]
    Chairman Roberts. What do you mean by keep me going?
    [Laughter.]
    Chairman Roberts. You can see we get along pretty good 
here.
    Janna, you and Mr. Alpers and Mr. Williams, all of you 
really, have mentioned crop insurance as a risk management tool 
that you support and personally utilize. For those of you that 
have crop insurance policies available--and I am specifically 
mentioning corn, soy, and apples; I am not trying to leave 
anybody out--are they largely working for you? In other words, 
where would we--somebody said in his written testimony--no, I 
think you said that you have 11 different suggestions or 
something in your written testimony. Could you sort of just 
highlight for me--I am the self-declared godfather of crop 
insurance, along with the distinguished Senator from Nebraska, 
Bob Kerrey, back in the day. So if anybody would like to go 
forth, Mrs. Fritz, do you want to take that on?
    Mrs. Fritz. Absolutely. On our farm, we have access to crop 
insurance for all of our commodities and have utilized it every 
year that I have been involved with the farm, every year that 
it has been available to us. It was absolutely critical even as 
recently as last year. We had an issue with a failure in our 
dry bean crop last year, so we were able to implement the crop 
insurance and save some overall revenue that we need on our 
farm, especially in light of all prices in the commodity market 
being low and very close to overall margins, the crop insurance 
was necessary for us to remain viable for future years.
    Chairman Roberts. Mr. Alpers?
    Mr. Alpers. Yes, we utilize crop insurance in all three of 
the commodities that we produce. It is a necessary tool for a 
grower in the apple industry as well as the cherry industry. I 
just want to give a quick example real quick. The startup cost 
to put a block of apples into production now has gotten so much 
higher than it was 5 years ago due to the increased land values 
in our area. This might sound totally crazy, but the farms in 
our area in the Leelanau peninsula sometimes go for $20,000 an 
acre. So you can imagine being a young grower trying to 
establish a living in the apple business, A, finding a lender 
that is going to lend you money to purchase the land, to then 
invest $16,000 to $18,000 worth of trees on that one acre, and 
then you are going to take care of it for 2 or 3 years before 
you even start to pick an apple off of it. Without crop 
insurance tools, there is no way that a young person could 
venture down that road with a clear mind. The lenders would 
laugh at you and turn you away if it was not available.
    With that said, there are some issues with it that I think 
really could benefit younger growers and more established 
people. Part of that has to do with you have to establish a 
150-bushel-per-acre yield before you are able to purchase a 
crop insurance program. Now with these high-density systems 
that we are planting, we go from zero bushels per acre in the 
second year to maybe 400 or 500 in the third year. Well, I was 
not able to buy insurance going into that third year. Should 
there have been a disaster or something in that third year, I 
would not be able to buy it for the fourth year because I did 
not have a salable crop. That is exactly what happened to me, 
and that is why I am here. In my third year, I had a hailstorm 
July 8th in Traverse City. It ruined my first salable crop. I 
did not have insurance on it because I had not met that minimum 
150-bushel-per-acre, which I think needs to be looked at a 
little bit.
    Now, next year I will not be able to purchase insurance 
because I did not have a salable crop because of the hailstorm, 
and I hope to be producing 700 to 800 bushels per acre next 
year, but I will not have the ability to purchase insurance on 
that. That is an issue for me.
    Chairman Roberts. That is an excellent suggestion. Thank 
you so much for that.
    Why don't we go back and forth on this? Go ahead.
    Senator Stabenow. Well, thank you so much, to each of you, 
and I want to continue on the topic crop insurance. Senator 
Roberts really was the founder of the whole effort on crop 
insurance, and I was pleased to take that to the next step in 
the last farm bill for specialty crops. Thank you, Mr. Alpers. 
I was making a note here on this because we want to make sure 
it is working as well as intended.
    Most commodities have the ability to tap into the farm 
safety net and crop insurance. One exception is milk, let me 
ask you, Mr. Siemen, as I mentioned before that the concept of 
the Margin Protection Program as a risk management tool makes 
sense, however the numbers were not quite right, so there is a 
problem. We have seen prices drop dramatically, as with other 
crops, but certainly you and other dairy farmers have seen 
tight margins. We have some real challenges related to the 
dairy safety net. My staff and I support the proposal, brought 
forth by American Farm Bureau, National Farmers Union and 
National Milk Producers, to offer milk the opportunity to do 
what other commodities can do, which is purchase crop 
insurance.
    We are working with the Secretary of Agriculture on 
expanding crop insurance for milk. There is capacity to do that 
administratively through the Crop Insurance Board, so we are 
working to be able to do that.
    I wonder if you might speak about that or, again, offer 
some other suggestions. I know we have to look at the issue 
around feed prices, but you have also said that you believe the 
Margin Protection Program conceptually works. There are two 
issues; One is, what can we be doing to make sure the safety 
net really works for dairy farmers? Secondly, how do we then 
convince dairy farmers to give the MPP program another chance 
and include more people? It works if dairy farmers buy into the 
program.
    Mr. Siemen. So, yes, we believe that the MPP program is a 
very good program if we can just get the feed cost like our 
portion of our inputs, a level playing field. We would also 
like the opportunity as other producers to have several options 
because, again, everybody is high risk, kind of high overhead. 
There is just no guarantee there that when you input high 
finances into your operation that there is a level there where 
you cannot drop underneath. If we could get the MPP program and 
the LGM program both fixed and working together, I think just 
with working with the co-ops and National Milk--dairy farmers 
trust who they work with and the companies they own--that dairy 
farmers would step right up and participate in the program 
again.
    Senator Stabenow. All right. Thank you. I do not mean to 
minimize what has happened with all of our commodity prices, 
but what I am hearing is that the Agriculture Risk Coverage 
program, which we use the most in Michigan, has relatively 
worked. That there may be some concerns around programs as 
well. But, unfortunately, the MPP did not hit the same level of 
success as the ARC or PLC programs.
    Mr. Ingrao, again, I am so pleased that you have chosen to 
focus on agriculture and farming. I know that the Michigan 
Farmer Veterans Coalition is one of the most successful 
organizations in the country for getting veterans involved. So 
I congratulate you for that, and I am proud that we were able 
to incorporate veteran farmer priorities with some loan 
programs and allow veterans and liaison position in the last 
farm bill.
    I am wondering, going forward, if are there any barriers 
for veterans interested in agriculture that we should be 
looking at? What are some specific examples of how we could 
encourage and support our veterans who have served abroad, 
returned home, many from small towns like where I grew up and 
around Michigan, and started looking for jobs, to look within 
the agriculture industry? Are there other things we should be 
focused on in this next farm bill as they relate to veteran 
farmers?
    Mr. Ingrao. Well, I think, Senator Stabenow, one of the 
most important things to consider when we are working with the 
veteran demographic is that they struggle with a lot of the 
same issues that most beginning farmers do. Farmer veterans 
tend to be individuals that are not coming from a family farm. 
A lot of them are discovering farming for the first time. Being 
that they are in that beginning farmer demographic, I think 
keeping a lot of the provisions in that assist beginning 
farmers, like the BFRD Program and the 2501 that really focus 
on educating those individuals to have them be prepared to be 
successful farmers, is absolutely critical.
    I can just say from the organizations that I work with, the 
set-asides that are there for military veterans within those 
programs are very important to us, and without those, I really 
feel like we would be losing a lot of the farmer veteran 
demographic because we just would not have the tools to reach 
them individually. Because it is a unique demographic--and we 
deal with a lot of post traumatic stress disorder, traumatic 
brain injuries, which are things that a lot of veterans are 
dealing with, it creates a sense where oftentimes those 
individuals are not willing to go in and actually access USDA 
services simply because their disability is prohibiting them. 
So going into a USDA office can oftentimes exacerbate the 
symptoms related to those particular injuries. I think that 
recognizing those challenges that face beginning farmers, also 
farmer veterans, is really important.
    I would just like to end on when we deal with the farmer 
veteran demographic and beginning farmers overall, there are 
usually three big things that come up for those individuals, 
and it is access to land, it is access to equipment, and it is 
access to capital. If there are provisions that can be put in 
to actually incentivize organizations or GreenStone Farm Credit 
or Farm Credit to actually help those individuals access those 
types of materials, even at that beginning farmer stage, that 
would be imperative to the success of the farmer veteran 
demographic here in Michigan and abroad.
    Senator Stabenow. Thank you. Well, we know in general that 
the average age of American farmers is 58 years old for the 
principal operator, and fewer farmers are seeing the next 
generation coming on to the farm. I know many of you are in 
multigenerational farms, which I love to hear about. But in 
general we have to keep focused on bringing more folks into 
agriculture. So thank you for doing your part.
    Thank you, Mr. Chairman.
    Chairman Roberts. I have got a question for all the 
witnesses. You do not go on a farmstead in Kansas and say, ``I 
am from the Federal Government, and I am here to help.''
    [Laughter.]
    Chairman Roberts. We all know about the overly burdensome 
regs. That is usually the number one issue or it used to be the 
number one issue in town hall meetings that I have had in the 
105 counties that we have in Kansas. Sometimes somebody raises 
a piece of paper and says, ``Pat, what in the heck is this all 
about?'' I do not even know about it. It is very helpful when 
you give us the real cost and problem that any regulatory thing 
might add up to.
    I think, Mr. Snider, you brought up this poultry rule. We 
will get in touch with Sonny Perdue.
    Senator Stabenow. Yes.
    Chairman Roberts. He did issue three proclamations about 1 
percent in the milk, including strawberry, and chocolate milk 
that kids will now drink, and he also alleviated the whole 
grains necessity. I had a nice sweet roll this morning. It was 
not whole grains. Then he left the salt content criteria the 
same, which was scheduled to go down again. We had fifth 
graders who were going into fast-food franchises and picking up 
little packets of sugar and salt and then coming back and 
selling them to their fellow students. Sort of an elementary 
mafia here.
    [Laughter.]
    Chairman Roberts. That is crazy. So we will follow up on 
the poultry rule.
    Anybody on the panel want to mention what would be--and 
there are probably too many to mention, but can you mention a 
regulatory challenge that is really causing you a hard time? 
Mrs. Fritz, why don't we just go down the line?
    Mrs. Fritz. I believe one of the biggest regulatory 
challenges that we face is freedom to operate relative to 
bringing new technologies into the market in the way of seed.
    Chairman Roberts. I thank you for that.
    Mr. Alpers?
    Mr. Alpers. I would echo that same statement. I look at 
what has happened a lot in the last few years since I came back 
to the family farm. We have hired a part-time person to manage 
all the different inspections and all the different paperwork 
that go along with farming. I never thought there would be a 
day--and I know my dad definitely did not--where you would have 
to document all the wildlife that crosses your land in a cherry 
orchard. That is a true story. It is part of the GAP Program. I 
think there are a lot of tweaks that could be made to some of 
these audits, and it is much more detail than we can go into in 
the amount of time, but we would be happy to pass that along.
    Chairman Roberts. I would be delighted to get that, and I 
know that my distinguished partner here would like the same 
thing.
    [The following information can be found on page XX in the 
appendix.]
    Chairman Roberts. You have to identify all the wildlife 
that go across your farmstead?
    Mr. Alpers. You do.
    Chairman Roberts. What happens if you miss one or two?
    [Laughter.]
    Chairman Roberts. Do you have somebody out there counting 
with you, or what?
    Mr. Alpers. Well, as long as the auditor at that time feels 
that you have done an adequate job documenting that, along with 
many other things, typically they will let it go if you miss a 
deer here or there. But there are times when you know somebody 
that----
    Chairman Roberts. What agency does that auditor come from?
    Mr. Alpers. USDA.
    Chairman Roberts. Okay. All right. That is utterly 
ridiculous.
    Mr. Gerstenberger, please.
    Mr. Gerstenberger. In production agriculture and living in 
Michigan surrounded by the Great Lakes, water is a key for us, 
so wetland determinations, things like that. I sit on the 
county committee of the FSA, and I know that growers, when they 
receive notification that something has been certified as a 
wetland, we have 30 days to respond. But on that committee, I 
know that we have asked for second determinations when we have 
appealed them, and some of them go back as far as 2011.
    Chairman Roberts. My gosh. Okay.
    Mr. Gerstenberger. So I would certainly think that the 
Government should respond----
    Chairman Roberts. Timely responses, in other words. Good. 
Thank you.
    Mr. Siemen.
    Mr. Siemen. As far as my operation, we went to robotic 
milkers, and inspection for robotic dairies is not the same 
across--nobody really knows what to do. So one inspector will 
go to one place and flag you for something----
    Chairman Roberts. What are you talking about, robotic what? 
Theories?
    Mr. Siemen. Robotic dairies. So on our farm people do not 
actually milk cows. It is just a machine.
    Chairman Roberts. Oh, I got it. I got it. All right.
    Mr. Siemen. So as it is growing in popularity----
    Chairman Roberts. We have that in Kansas as well.
    Mr. Siemen. Yeah, probably.
    Chairman Roberts. Big time. Thank you so much. I did not 
mean to be so ignorant.
    Mr. Snider.
    Mr. Snider. For sure--it was mentioned before--the amount 
of time spent on documentation and regulation, as a senior 
partner in an operation, I spend a lot of time doing that. One 
specific thing on our farm, our turkeys, we raise 170,000 
turkeys a year. A small portion of those are organic, about 15 
percent. The rest of them we raise as antibiotic-free. 
Recently, to raise antibiotic-free, a GAP agency was created. I 
do not need to get into all the details, but it has totally 
gotten out of hand. It is not about practices of doing a good 
job of raising birds. To make it short, animal rights came in. 
The president of HSUS was on the panel, and it was not intended 
to start out that way. We know how to raise birds and to do it 
fair and safe and provide a good product. The regulation for to 
be GAP-certified ABF birds is next to impossible.
    Chairman Roberts. Mr. Williams.
    Mr. Williams. I, too, would go along with some kind of 
simplification of regulations for what we are trying to do. We 
have worked with NRCS and FSA on a number of programs, and it 
just seems like everything takes a lot longer to do than it 
really should. Give us some credit for what we are doing, and 
we know what we are doing. With some guidelines we can 
implement what needs to be done.
    Chairman Roberts. Mr. Ingrao.
    Mr. Ingrao. Yes, Mr. Chairman, the two areas that really 
are--well, I would say have not come to fruition as far as 
struggles for regulations with our farmer veterans but there is 
a lot of anxiety around is the new Food Safety and 
Modernization Act. One of the other areas that I think has been 
touched on here as well is the GAP certification as well. Our 
organization, Michigan Food and Farming Systems, has piloted a 
program here in the State of Michigan for group GAP to allow 
producers, especially small producers, to GAP certify 
collectively, and we have seen some success there. But, again, 
there is quite a bit of anxiety around the Food Safety and 
Modernization Act.
    Chairman Roberts. Mrs. Miller.
    Mrs. Miller. Yes, I would say one of the regulations that 
we are dealing with is in the lender side of it. Because our 
industry here in Michigan is considered relatively new, we are 
finding that as some of the--especially GreenStone Farm Credit 
Services, they were allowed to help us as agricultural lending 
to our farmers. But when it got to the vertical stance of 
growing and then processing, it stopped at the processing 
level, and it really tied our hands to be able to move forward 
within the agricultural industry, and we had to go outside of 
them as lenders to find another avenue to help with the 
equipment and the processing facilities.
    So what we are asking is for a more vertical line and 
understanding that we can grow hops all day long and dry them, 
but if we do not have the processing centers to pelletize and 
move them on, it is a stop-gap for us to get it to the brewer.
    Chairman Roberts. Deborah, I am 3 minutes and 50 seconds 
over, so I am sentenced to go to Dodge City, it looks like.
    Just a couple of things. One of the first things that 
President Trump did was to hopefully take action on WOTUS, the 
Waters of the U.S., which seemed to be the number one issue 
with regards to overregulation. Thank you all for your 
suggestions. They will be part of the record.
    Mr. Williams, I do not know what to say. I did not know 
that I was sitting on soybeans in terms of my car seat.
    [Laughter.]
    Mr. Williams. It is okay.
    Chairman Roberts. That sort of sounds like a country-
western song.
    [Laughter.]
    Chairman Roberts. Anyway, thank you all for that.
    Please, Deborah, get me off the hook.
    Senator Stabenow. Well, thank you, Senator Roberts. You 
know, I could talk forever about biobased manufacturing, and we 
have spent a lot of time on this. But I will say that, as was 
mentioned, in any Ford product now, you are sitting on soy-
based foam rather than petroleum-based foam. So you have 
soybeans in the seats, and if you get hungry, you know what you 
can do.
    [Laughter.]
    Senator Stabenow. There is a lot more being done with corn 
byproducts, wheat byproducts and so on. These value-added 
processes are creating jobs in biobased manufacturing, which I 
think is a very exciting extension of bringing together what we 
do in Michigan, which is make things and grow things. It is 
something I am very enthused about and we need to make sure we 
keep it going in the Energy Title.
    Mr. Snider, I wanted to talk about conservation for a 
moment. I am really impressed with the conservation efforts on 
your farms, so I wondered if you could talk about how these 
practices support the long-term health and viability of your 
farm. Do you think the farm bill should continue to prioritize 
voluntary working lands conservation programs?
    Mr. Snider. So I believe they would be CSPs, specifically. 
We were in the first round of contracts for 7 years, and now we 
are in the third year of the second 5-year round. Each year or 
each time, we identified practices that we were either already 
doing or would like to do, and from a cost standpoint, it kind 
of took us to the next level. I consider our farm being kind of 
out front, probably leading in a lot of things. This year, we 
are doing now less than 20 different cover crop mixes, that 
many fertilizer combinations, multiple applications of nitrogen 
and things that we are doing to try to conserve fertilizer. 
Some of those are supported by CSP; some of them are things 
that maybe will be in the next CSP, if there is another one. 
But they have propelled us forward and taken us to the next 
level, I guess is how I like to say that.
    Senator Stabenow. Great. Thanks.
    Mr. Gerstenberger, Rick, let me ask you, your testimony 
states that Michigan sugar draws supplies from over 150,000 
acres of sugar beets grown by farm families and the economic 
impact beyond the farm. I wonder if you could talk about the 
different kinds of jobs that sugar production supports in 
Michigan, How many people in Michigan communities would you 
estimate are really dependent on our sugar industry for their 
livelihood?
    Mr. Gerstenberger. Well, LMC International estimates that 
just over 5,000 individuals are directly related to farmers and 
factories in the sugar industry in Michigan in 2011. There are 
numerous outside contractors that are used all the time through 
the factories and people--plumbing contractors, builders, 
steelworkers, electrical contractors, and many more.
    Michigan Sugar Company 3 years ago undertook a process of 
updating some of our over-100-year-old factories and facilities 
in small towns like Croswell, Caro, and Sebewaing. These 
factories are the lifeblood of those communities. They are the 
number one employer in those facilities, and many of these type 
of contractors work there. Even in Bay City, if Michigan Sugar 
Company was to go out of business, the loss would be felt in 
the large town also, large communities.
    So those are some of the things, those are some of the 
people that we rely on to get those jobs done, and it is an 
industry that we need to keep in this State. Thank you.
    Senator Stabenow. Thank you. We need to make sure that 
Mexico is doing the right thing as well, on the trade front, 
but we certainly focus on that. We talked with the Secretary of 
Agriculture about that, as well as dairy in Canada, when we had 
breakfast with him on Thursday.
    Mr. Alpers, I am so glad we have a Specialty Crop Title in 
the farm bill. We put that in the 2008 Farm Bill, and include 
the block grants to provide flexibility to states based on 
commodities, local needs and so on. I wonder if you might 
describe how these grants have been used from your perspective?
    Mr. Alpers. I am going to go off the farm a little bit and 
talk about that. It has allowed the Michigan Apple Committee to 
reach markets in places with social media, things that they 
never would have been able to do without those programs in 
place. To piggyback on your question about what that means 
trickling down, we have been lucky enough to have you in our 
area a lot of times up in Traverse City, and it is the cherry 
capital of the world, and we do grow some apples there, too. 
But when you drive from Traverse City north, you would be hard-
pressed going down any one of those roads to not find a home 
that did not have somebody that was working in agriculture in 
the household. So money spent on programs like that comes back 
down to a grassroots level and keeps the economy going in our 
local area. We are lucky enough to have tourism and agriculture 
in the Traverse City region, but without ag, we would--there 
are not enough jobs working at all the restaurants and the 
hotels and the breweries that you might be coming to visit next 
year.
    [Laughter.]
    Senator Stabenow. Well, it really does all fit together, 
right? That is why when we connect it all in Michigan. We can 
say one out of four jobs are dependent in some way on the food 
and agriculture industry in Michigan, and that is a big deal. 
So thank you again for your testimony. I know we have one more 
panel of witnesses that will be joining us as well. Again, we 
are very grateful for all of you being here today.
    Thank you, Mr. Chairman.
    Chairman Roberts. Excellent testimony. Thank you so much. 
Thanks to the first panel.
    I ask the second panel to quickly take their seats.
    [Applause.]
    [Pause.]
    Senator Stabenow. I am going to start introducing folks 
because we are running a little behind and we are so interested 
in all the testimony. We promised Senator Roberts he is going 
to be leaving here to catch a plane to get back home, so I am 
going to move through quickly with our second panel.
    Starting off our second panel is Dr. Oran Hesterman. Dr. 
Hesterman currently serves as president and CEO of the Fair 
Food Network, a national nonprofit that pioneers solutions that 
support farmers, strengthens local economies, and increases 
access to healthy food. Before launching Fair Food Network, Dr. 
Hesterman served as a program director in food systems at the 
W.K. Kellogg Foundation and taught at Michigan State 
University.
    With us today is Ms. Faith Watson. Ms. Watson has lived 
most of her life in Michigan, holds a degree from Cornerstone 
University, and she is a mother of two young children, ages 4 
and 6. Faith is very active in her local church and community. 
We are so glad you are here today.
    Next on our panel is Mr. Jim Nugent. Mr. Nugent and his 
wife own Sun Blossom Orchards in Suttons Bay, another beautiful 
part of Michigan. He holds a bachelor's and master's degree 
from Michigan State University and retired in 2007 as the MSU 
district extension horticultural agent and coordinator of the 
Northwest Michigan Horticulture Research Station. Mr. Nugent 
currently chairs both the Michigan Tree Fruit Commission and 
Graceland Fruit's Board of Directors, and is active with the 
Leelanau Conservancy and Michigan Farm Bureau.
    Next I would like to welcome Mr. Kyle Rorah. Mr. Rorah is 
from southeast Michigan, growing up in Algonac. He is a 
graduate of the University of Michigan and holds a master's 
degree from Bard College in New York. He joined Ducks Unlimited 
in January 2016 where he now works as the Great Lakes and 
Atlantic Region policy specialist.
    Also with us today is Detroit native and urban farmer, Mrs. 
Jerry Ann Hebron. Mrs. Hebron worked for the Third Judicial 
Circuit Court for almost 30 years and in real estate for 25 
years. She has served as director for both the Detroit 
Association of Realtors and the State of Michigan Realtor 
Association. In 2008, Mrs. Hebron became the executive director 
of the Northend Christian CDC in Detroit and started the 
Oakland Farm Way in the historic Northend community. She is the 
current treasurer of the Detroit Food Policy Council. So glad 
to have you.
    Next on our panel is Mr. Collin Thompson, who serves as the 
farm manager for Michigan State University's Upper Peninsula 
Research and Extension Center and USDA Organic Certified North 
Farm in Chatham, Michigan. He has worked on farms around the 
world, and his experience has provided him with a global 
perspective and a local approach when it comes to sustainable 
food production.
    We also want to welcome Mrs. Kristen Matson to our panel. 
Mrs. Matson received her bachelor's in forestry from MSU and an 
MBA from Lake Superior State University. She began her career 
with the U.S. Forest Service in the Panhandle National Forest 
in Idaho before moving to the Huron-Manistee and Hiawatha 
National Forests in Michigan. Mrs. Matson currently works as 
the East Upper Peninsula inventory and planning specialist for 
the Forest Resources Division of the Michigan Department of 
Natural Resources in Shingleton. You have the award for the 
longest title of anyone here.
    [Laughter.]
    Senator Stabenow. We are so glad to have you.
    To round out our last panel, we have Mr. Bob Hance. Mr. 
Hance began his current role as president and CEO at Midwest 
Energy Cooperative in 2002. He is currently the board chairman 
for RESCO and serves on the Board of Directors for the Michigan 
Electrical Cooperative Association, National World 
Telecommunications Cooperative, and the Spartan Renewable 
Energy and Utilities Telecom Council. He is the founding member 
and current vice chairman of the Rural Broadband Council, an 
independent operating unit of UTC, and a member of the Rural 
Broadband Coalition.
    We thank you and welcome all of you.
    Chairman Roberts. Let us start with Dr. Hesterman.
    Dr. Hesterman, please.

  STATEMENT OF ORAN B. HESTERMAN, PH.D., PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, FAIR FOOD NETWORK, ANN ARBOR, MICHIGAN

    Mr. Hesterman. Thank you, Chairman Roberts and Ranking 
Member Stabenow.
    I am the CEO of Fair Food Network. I come to this work as a 
farmer, business owner, philanthropist, agricultural scientist, 
and now as a nonprofit executive. I want to provide an update 
on the Food Insecurity Nutrition Incentive program, or FINI, 
which was created in the last farm bill. There are two points I 
would like to make.
    First, produce incentives work. They are improving the 
diets of SNAP participants and increasing farm income, 
especially when tied to local production.
    Secondly, FINI has been a success and warrants 
reauthorization.
    Fair Food Network developed Double Up Food Bucks, which you 
heard mentioned by Mr. Ingrao in the last panel, in 2009. It is 
simple. For every SNAP dollar that a shopper spends on fresh 
produce, they get another dollar to spend on Michigan-grown 
produce. This season, Double Up will be in 70 grocery stores 
and over 150 farm stands and markets across the State of 
Michigan and in northwest Ohio.
    We are also working with partners in more than 20 other 
States, including Kansas, Missouri, Iowa, Nebraska, Arkansas, 
and Texas, not traditionally specialty crop States but all 
successfully integrating regional production into their 
programs. This progress would not have been possible without 
Congress' commitment of $100 million to the FINI program in the 
last farm bill.
    Fair Food Network received a $5.1 million FINI grant in 
2015, which we matched with private dollars. It is allowing us 
to expand, evaluate, innovate, and improve the program in 
Michigan through 2019. For example, in grocery stores, Double 
Up can operate with coupons, with automatic discount, with 
store loyalty cards, or through a reloadable Double Up card.
    Last year, groups in Kansas and Missouri received a FINI 
award to expand a Double Up pilot which started at Ball's Price 
Chopper Stores. By 2019, Double Up will be in 117 grocery 
stores and 68 farmers markets across those two States, 
including groceries in small rural communities in Kansas like 
Humboldt and Pittsburgh.
    Incentives have multiple benefits which programs nationwide 
are documenting. For families, incentives simultaneously 
alleviate hunger and improve diet. SNAP recipients shop more 
frequently and buy more produce when Double Up is in place. In 
fact, last year, our major grocery partner in Michigan found 
that fresh produce accounted for 17.5 percent of Double Up Food 
Bucks shoppers' baskets as compared to only 7 percent for non-
Double Up shoppers.
    Grocers like Double Up. In an Arkansas pilot this spring, 
produce sales doubled in the month that the incentive program 
was operating, and grocers appreciate the connection to rural 
agriculture. As Mike Beal, the COO Ball's Food Stores, noted, 
``We increased our local produce sales in participating stores 
12 to 15 percent in the first year.''
    Incentives also support farmers and farmers markets. In 
Iowa last year, 74 percent of the farmers said they earned more 
money because Double Up Food Bucks was at the market. In Mount 
Pleasant, Michigan, a new influx of customers are coming to the 
market because of Double Up.
    The FINI program's structure is sound. I am suggesting only 
minor adjustments. A center could promote best practices and 
provide technical assistance. We need better technology options 
for incentive delivery, and I recommend funds be set aside for 
this. Additional evaluation approaches should be explored. We 
should also consider adding flexibility to the match 
requirement. Finally, we should maintain the connection to 
regional production; it works and makes every dollar go farther 
and do more.
    I know you often hear about what is not working in Federal 
farm and food programs, and my message today is the opposite.
    Produce incentives work. Our experience and that of others 
nationwide demonstrates the positive impact they are having. 
FINI is making a difference and should be reauthorized.
    Thank you.
    [The prepared statement of Mr. Hesterman can be found on 
page 89 in the appendix.]
    Chairman Roberts. I thank you, sir.
    Faith Watson. Ms. Watson, please.

  STATEMENT OF FAITH WATSON, MONTCALM COUNTY SNAP RECIPIENT, 
                      GREENVILLE, MICHIGAN

    Ms. Watson. Thank you. Chairman Roberts and Senator 
Stabenow, thank you for inviting me to testify today. I 
appreciate the opportunity to tell you about my story and how 
the Supplemental Nutrition Assistance Program, or SNAP, has 
helped my family.
    My name is Faith Watson. I am from Greenville, Michigan, 
which is a rural community of about 9,000 people located in 
western Michigan. Honestly, I never thought that I would be in 
a position to testify about my experience as a SNAP 
participant. I have a bachelor's degree from Cornerstone 
University. I am an adventurous go-getter. I have always cared 
about other people and have tried to give back to my community 
through service and through my church. I worked hard throughout 
my twenties--first at a news radio program in Grand Rapids and 
then a variety of jobs as I moved around the country with my 
husband. Even when I took a job at a Starbucks in a new town, I 
quickly worked my way up to a shift manager. But life does not 
always work out as you expect.
    Almost 2 years ago, I found myself separated from my 
husband, and I became the sole caregiver to and wage earner for 
my two young children. I had been a stay-at-home mom for 
several years and was completely unprepared for this unexpected 
change in our lives. All at once, I had to find work and sort 
out how I would manage to raise two small children on my own.
    I found a part-time sales job at a large retail chain. It 
was only minimum wage, but it was a job that helped me get back 
on my feet. I also applied for help at the local Department of 
Health and Human Services, and I was approved and qualified for 
about $300 a month in SNAP benefits. It was a huge weight off 
my mind to get that help. Because of SNAP, I knew I could put 
food on the table and still pay my other bills. It also meant 
that I could afford to give my kids some special treats, like 
some of their favorite squeezable yogurt snacks. Eating healthy 
foods has always been important, and SNAP just made that easier 
to do.
    Each day moves us forward, and things today look very 
different for us. It is still hard to juggle it all, but we are 
all much better. I have a part-time position as a 
communications coordinator at a local civic organization, which 
is in the field my degree. So I also do temporary work at my 
church. I volunteer at my son's school and my daughter's 
preschool. I am slowly but steadily growing a home business as 
part of a health and wellness direct sales company. Now because 
I am earning more, my SNAP benefit is about $120 a month. It 
still makes a big difference in our family budget. Knowing that 
I have this help lets me create an environment for my kids 
where they are safe, secure, and thriving.
    SNAP's benefit to my family has been about more than just 
groceries. This little bit of security lets me think forward to 
the future. I do not plan to be in this situation forever. But 
I do not know how long it will take me to get out of this, but 
it is something I think about every day. My goal is to be in a 
place where I am financially independent, to provide for my 
kids without needing help, and to be in a place where I can 
give back to my community both financially and with my time. 
SNAP has helped me take steps toward that goal of a different 
kind of future.
    I know I am not the only one struggling to make ends meet. 
My county has one of the highest poverty rates in Michigan. I 
see many single moms working several part-time jobs and still 
barely making it. I am always quick to encourage them to apply 
for SNAP to help them get by and care for their kids.
    There is definitely a lot of good the program does, but 
there is stigma about those who depend on SNAP benefits. There 
seems to be a pervasive stereotype about what kind of person 
uses SNAP: they are lazy, they do not care, they do not work. 
But that is just not me, and it is not the people I know who 
have needed Government assistance. We are hard workers who want 
a different future.
    Of course, the program is not perfect. The application 
process and eligibility redetermination are tedious and highly 
involved, with all the paperwork taking a lot of time to gather 
and submit. The state needs so much proof of everything that is 
going on in my life to calculate my benefits--from employer 
statements, to child care expenses, pay stubs, bank info, 
utility bills, and a lot more. The State's website technology 
also leaves much to be desired, repeatedly crashes in the 
middle of entering required information, is not user friendly, 
and often fails to deliver uploaded documents. Hopefully, this 
will get better.
    Reducing paperwork would be something participants and case 
workers would likely both agree could improve the process. 
Another improvement could be to avoid reducing SNAP benefits 
immediately after a participant reports an increase in their 
income, which seems more like a punishment for working more and 
trying hard to get ahead, instead perhaps allowing a short 
window of time of stable benefits, which could potentially help 
participants get back on their feet faster.
    I hope that sharing my experience helps you appreciate the 
importance of this program to families like mine that really do 
need help, and that my story can help inform your work on 
writing next year's farm bill. Please know that for many of us, 
it is a lifeline that we did not know we would need, and it 
provides stepping stones that are a key to future success. 
Thank you for providing the benefit. It has made a huge 
difference to my family.
    I welcome any of your questions. Thanks for your time.
    [The prepared statement of Ms. Watson can be found on page 
138 in the appendix.]
    Chairman Roberts. Faith, thank you for that most unique and 
helpful statement. I can only say you have got a great first 
name.
    Senator Stabenow. That is right.
    Chairman Roberts. Mr. Nugent.

STATEMENT OF JIM NUGENT, FRUIT GROWER AND CHAIR, MICHIGAN TREE 
            FRUIT COMMISSION, SUTTONS BAY, MICHIGAN

    Mr. Nugent. Thank you, Senator Roberts and Senator 
Stabenow.
    Michigan is blessed with a wide range of soils and 
topography and surrounded by the Great Lakes, creating the 
natural conditions that foster the second-most diverse 
agriculture in the Nation.
    My wife and I farm on the Leelanau Peninsula in northwest 
Michigan, an area that is exceptionally well suited for cherry 
and other fruit production. We are challenged to grow high-
quality food in a globally competitive and sustainable manner. 
Hence, we in agriculture rely extensively on land-grant 
universities for the research and information to keep our 
industries viable. I strongly support increased Federal funding 
for research and extension.
    Here is an example of why research is so critical. An Asian 
insect called ``spotted winged drosophila,'' or SWD, was found 
in California in 2008. Females lay eggs in thin-skinned fruits 
where the larvae develop. SWD was found in Michigan in 2010 by 
the Michigan State University Extension fruit team. Since then 
the population has exploded and now seriously threatens the 
Michigan cherry and blueberry industries.
    As growers, we turn to MSU researchers and extension for 
answers on how to manage SWD. Federal research funding is 
critical to address this type of serious threat. Specialty Crop 
Research Initiative funding has really helped address major 
issues like SWD that affect crops across the country. MSU has 
also applied for SWD research funds from the new Rapid Outcomes 
from Agriculture Research program which is part of the 
Foundation for Food and Agriculture Research. The Rapid 
Outcomes program is a great way to help agriculture quickly 
address emerging issues through research.
    MSU has four research centers strategically placed in major 
fruit-growing areas which complement research conducted on 
campus. The apple and cherry industries have grower-funded 
programs that support research, but falling Federal and State 
funding was straining MSU's campus and field infrastructure to 
meet grower needs.
    As a result, growers established the Michigan Tree Fruit 
Commission. It is a grower-funded program created to ensure MSU 
has adequate facilities and personnel to conduct research and 
extension programming. The commission has been successful, but 
works because it has a strong partnership with MSU. For MSU to 
remain that strong partner requires adequate Federal funding to 
support the scientists and the facilities needed to address 
grower issues and to fund projects beyond the scope of industry 
dollars.
    I also wish to express my support for the Agricultural 
Conservation Easement Program, or ACEP, and the Regional 
Conservation Partnership Program, RCPP. Production of tree 
fruits and wine grapes in Michigan is found on the rolling 
hills close to the shores of Lake Michigan. But these scenic 
areas are also highly desirable for development. The Leelanau 
Conservancy has worked with farmers and USDA's NRCS to protect 
nearly 3,300 acres of prime and unique farmland with 
conservation easements so it can remain viable for food 
production. This work is made possible through ACEP.
    To expand protection efforts, the conservancy was one of 
the recipients of a recent RCPP award. This has created a 
partnership that includes the Grand Traverse Band of Ottawa and 
Chippewa Indians, Grand Traverse Regional Land Conservancy, and 
the Conservation Resource Alliance. The program will allow the 
two conservancies to permanently protect land that is valuable 
both for agriculture and water resource protection with 
conservation easements, while partners implement other 
practices to protect the area's water resources and improve 
critical fish habitat.
    I strongly encourage your continued support of these and 
other conservation programs. Sustaining a viable agricultural 
economy that produces healthy food to feed our country and the 
world requires an investment in resource protection. We know 
that much more conservation is implemented when USDA is a 
strong partner in the effort.
    Thank you.
    [The prepared statement of Mr. Nugent can be found on page 
113 in the appendix.]
    Chairman Roberts. We thank you for your statement.
    Mr. Rorah.

STATEMENT OF KYLE RORAH, GREAT LAKES AND ATLANTIC REGION POLICY 
        SPECIALIST, DUCKS UNLIMITED, ANN ARBOR, MICHIGAN

    Mr. Rorah. Good afternoon, Chairman Roberts, Ranking Member 
Stabenow. It is a tremendous honor and privilege to testify 
here before you today. I thank you both for the opportunity to 
express the importance of the farm bill to the conservation 
community here in Michigan and around the country. The farm 
bill's conservation programs represent the single largest 
investment in private landowner conservation that this Nation 
makes on an annual basis, and it is critical to farmers here in 
Michigan, Kansas, and around the country to enhance profitable 
farming operations, maintain healthy soils, produce abundant 
wildlife, and protect critical wetlands and clean water.
    These programs in turn help support Michigan's multi-
billion-dollar hunting and recreational fishing economy, that 
supports 72,000 jobs here in the State alone, and we have some 
members in the crowd here that represent part of that wearing 
orange today.
    DU appreciates the leadership of you both and your staff in 
securing a robust Conservation Title in 2014. Our top goal 
heading into the 2018 Farm Bill is preserving and advancing 
many of the gains made in conservation. Simply put, there is a 
lot at stake here, and conservation is a critical part of our 
Nation's agricultural safety net.
    DU supports voluntary, incentive-based conservation 
programs that are streamlined, efficient, and friendly to both 
producers and wildlife. We believe this is the best defense 
against unnecessary regulatory actions.
    One such incentive that is paramount is conservation 
compliance. During the last farm bill, a broad coalition of 
commodity, crop insurance, and conservation leaders 
collaborated to support and defend attacks on crop insurance 
and support conservation compliance. We stand ready to assist 
in those efforts again today.
    The farm bill provides many important voluntary programs 
that benefit farmers as well as sportsmen and women. They 
include the Regional Conservation Partnership Program. This 
innovative new program is currently supporting eight projects 
here in Michigan totaling more than $55 million. DU wants to 
maintain this important partnership program in the 2018 Farm 
Bill while making some changes that will improve program 
delivery, further spur innovation, and ensure partners have the 
resources and tools they need to be successful.
    The Agricultural Conservation Easement Program, ACEP, is 
another farm bill program that DU has found to be mission 
critical. Due to its documented success and high landowner 
demand, we support efforts to restore baseline funding back to 
at least $500 million per year, as well as changes to improve 
management and landowner flexibility on ACEP sites.
    The Conservation Reserve Program, CRP, is yet another 
important component of the farm bill and gives landowners the 
opportunities to conserve soil, water, and habitat that are 
critically important to our target game species, like deer, 
ducks, and pheasants. DU supports a robust increase in the 
national CRP cap from the current 24 million acres, more 
working lands options, and an increased CRP grasslands 
allocation.
    The final program I will mention is the Volunteer Public 
Access-Habitat Incentive Program, which helps advance the 
sportsmen's heritage by providing financial incentives to 
landowners who practice conservation and allow the public to 
hunt their land. This program is critical to continue to ensure 
that current and future generations of sportsmen and women have 
places to hunt and enjoy the outdoors.
    On behalf of Ducks Unlimited's 1 million supporters across 
the U.S., including more than 29,000 Michigan members and 
15,000 Kansas members, I want to thank you for the opportunity 
to testify. A strong Conservation Title is essential to the 
economic prosperity of our Nation's producers and serves as a 
backbone to conserve our Nation's valuable soils, wetlands, 
grasslands, and wildlife populations.
    Thank you.
    [The prepared statement of Mr. Rorah can be found on page 
115 in the appendix.]
    Chairman Roberts. We thank you for your statement.
    Jerry Ann Hebron.

 STATEMENT OF JERRY ANN HEBRON, FARMER AND EXECUTIVE DIRECTOR, 
           NORTHEND CHRISTIAN CDC, DETROIT, MICHIGAN

    Mrs. Hebron. Good afternoon, Chairman Roberts and Ranking 
Member Stabenow. Thank you for the opportunity to testify at 
today's hearing and share my perspective on urban farming.
    I am a native Detroiter. Detroit was once the capital of 
the United States auto industry, which almost single-handedly 
helped to create the American middle class. But Detroit has 
been crippled, by closing factories, falling home prices, the 
exodus of tens of thousands of residents, and now we have a 
multitude of vacant land.
    The Great Recession started early in Detroit and can still 
be felt in some quarters. When the Nation's unemployment rate 
was hovering around 9 percent, the jobless rate in the metro 
Detroit area was over 11.5 percent. In the city proper, the 
unemployment rate was probably around 20 percent--although, 
unofficially, that figure was much higher for those of us 
viewing things on the ground. In fact, a 2009 article in the 
Detroit News suggested the true unemployment figure might be as 
high as 50 percent. Couple that with the estimated 80,000 
housing units needing demolition and the city's 20 square miles 
of vacant land, roughly equal to the size of the city of 
Manhattan. What you get is the need for creative paths forward 
like the Oakland Avenue Farm Way.
    When we started farming in 2009, the neighborhood was not 
safe. It was filled with vacant lots and houses and a liquor 
store on every corner selling greasy food. To respond to this, 
we started growing a variety of vegetables that were culturally 
appropriate for the community that we work in.
    In 2011, we started adding fruit, opened farmers market on 
the farm, and started selling at six Chrysler plants throughout 
the metro tri-county area. In order to meet the demand of these 
farmers markets, we had to increase our production, so we 
purchased more land. We also started a value-added production, 
which included a line of AFRO Jams so we can increase our 
sales. Over the last 3 years, we purchased over 30 properties 
surrounding our farms and have created the Oakland Avenue Farm 
Way, which currently is a 4.8-acre farm. It is an incubator 
space for food-related businesses and educational programs 
around food and nutrition. In addition, we have two 
greenhouses, one funded through USDA Environment Quality 
Incentive Program. We have purchased and renovated an abandoned 
house which is now used as our community space for youth 
programming, meetings, and a shared kitchen.
    What is needed now to grow these businesses is access to 
more USDA funding for crop insurance, low-interest loans for 
equipment and integrated farm business development, and 
infrastructure for water.
    Urban agriculture is a great environment to work and grow 
skilled workers who traditionally have been denied employment 
because of background checks and drug problems. On our farm we 
work with people where they are, and what we find is our 
environment is one in which we are able to train people basic 
employment needs. We have been able to hire people in the 
community as seasonal workers, and we recently started an 
initiative to train our farm workers on how to grow fruit trees 
and manage large-scale farm equipment, giving them specialty 
skills and machine training.
    The Oakland Avenue Farmers Market is one of 16 members 
operating farmers markets in communities across Detroit. Thanks 
to the 2014 Farm Bill, all of these markets are able to process 
transactions for families receiving food assistance and we use 
Double Up Food Bucks. They also offer a variety of educational 
programming regarding nutrition, food preparation, and food 
safety. The Oakland Avenue Farmers Market in partnership with 
the Detroit Community Markets received funding through the USDA 
Farmers Market Promotion Grant for 2017 and 2018 to support 
outreach, growth, vendor support, and programming in our 
community.
    Transitioning into urban farming and working in a community 
environment has proved to be the best thing I could have done 
to address basic community needs and to work to increase 
employment opportunities.
    Thank you.
    [The prepared statement of Mrs. Hebron can be found on page 
81 in the appendix.]
    Chairman Roberts. Thank you very much for your statement.
    Collin Thompson.

STATEMENT OF COLLIN THOMPSON, COMMUNITY FOOD SYSTEMS EDUCATOR, 
    MICHIGAN STATE UNIVERSITY EXTENSION, AND MANAGER, UPPER 
  PENINSULA RESEARCH AND EXTENSION CENTER'S ORGANIC CERTIFIED 
                 NORTH FARM, CHATHAM, MICHIGAN

    Mr. Thompson. Chairman Roberts, Ranking Member Stabenow, 
thank you for the opportunity to testify today.
    My name is Collin Thompson. I am a community food systems 
educator for Michigan State University Extension housed at the 
Upper Peninsula Research and Extension Center. Part of my job 
entails managing the North Farm, which is a USDA-certified 
organic produce farm, where I work with members of our 
community to learn the latest techniques for farming in the 
UP's challenging northern climate.
    I am privileged to work with beginning and seasoned growers 
with the goal of improving their farms through educational 
programming and on-farm research.
    Each year, we invite thousands of visitors to participate 
in workshops, trainings, school visits, and other learning 
opportunities. In addition, we host a farm business incubator 
where we provide resources to farmers as they start their fair 
enterprises.
    We also conduct on-farm research, hoping to better 
understand the challenges of producing specialty crops and 
small grains, again, in our unique climate.
    My work focuses in two primary areas, that of the local and 
regional food systems, and organic agriculture. Michigan, and 
specifically the UP, is fortunate to support incredibly vibrant 
food systems. However, the central UP economy tends to drain 
away from the region, resulting in an annual net loss of $540 
per farm. In fact, while the rest of the State boasts about 
Michigan's growing agriculture economy, growers in my region 
saw a $3.4 million reduction in commodity sales from 1969 to 
2011.
    Despite these challenges, my region is seeing tremendous 
growth in specific areas of the food economy. The number of 
farms pursuing direct-to-consumer sales has increased 22 
percent since 2002, boosting those sales figures by 24 percent. 
Programs funded through the farm bill, such as the Farmers 
Market Promotion Program and the NRCS High-Tunnel Initiative, 
have kept food dollars in the region through the expansion of 
local farmers markets and helped over 100 farmers build more 
resilient businesses by installing seasoned extension 
structures on their farms. Simply put, these critical programs 
are strengthening the UP's economy.
    Organic is the fastest growing sector in the U.S. food 
economy, now representing over $43 billion dollars in sales. 
Since 2008, the industry has grown by nearly $20 billion, with 
a 300-percent increase in the number of certified organic 
farms. Still, domestic production does not come close to 
matching the demand. The 2014 Farm Bill made critical 
investments to strengthen the organic sector, but more work 
needs to be done to support the industry.
    Despite the incredible growth of organics, funding for the 
two primary organic research funds--the OREI and the ORG--has 
remained steady. Additionally, only two-tenths of a percent of 
the funding through the Agriculture and Food Research 
Initiative, the USDA's premier competitive research program, 
goes to organics. Funding we received through AFRI in 2014 is 
the only reason I can do the work I do every day.
    Agricultural research is essential for continued growth in 
the organic sector as every $1 invested in public agricultural 
research generates $10 to $20 in domestic economic activity. We 
simply cannot lose this opportunity to help our farmers.
    The programs currently supported by the farm bill, such as 
the OREI, the ORG, and the Organic Cost Share Program, are 
allowing more farms to certify and are enhancing soil, 
environmental, community, and farmer health.
    I am fortunate to work every day with individuals invested 
in the local, regional, organic food systems in the Upper 
Peninsula. Utilizing support through programs funded by the 
farm bill, they are continuing to lead the agricultural 
industry.
    As both a certified organic producer and a professional in 
the industry, I urge Congress to support local/regional and 
organic agriculture by significantly increasing funding that 
supports these industries in the next farm bill.
    Again, thank you for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Thompson can be found on 
page 134 in the appendix.]
    Chairman Roberts. We thank you for your testimony.
    Mrs. Matson.

    STATEMENT OF KRISTEN MATSON, EUP INVENTORY AND PLANNING 
 SPECIALIST, MICHIGAN DEPARTMENT OF NATURAL RESOURCES, FOREST 
            RESOURCES DIVISION, SHINGLETON, MICHIGAN

    Mrs. Matson. Thank you, Chairman Roberts and Ranking Member 
Stabenow, for the invitation to testify. Today I hope to give 
the Committee a summary of how the 2014 Farm Bill is already 
helping us create more forestry jobs in Michigan and how the 
2018 bill can build on that progress. I will also talk about 
the serious problems caused by a broken Forest Service budget 
and will conclude by outlining a new opportunity for job 
creation in the forest products sector.
    Michigan has 20 million acres of forest, which is 
approximately 56 percent of our land. This land supports a $20 
billion industry and employs 96,000 people statewide. A recent 
example of the sector's impact comes by way of the new Arauco 
Forest Products Mill in Grayling, Michigan, which is a rural 
community about 115 miles northwest of here. This plant is a 
$400 million investment which will create 700 construction jobs 
and 200 full-time jobs in the region. The economic activity 
from this company and others is often driven in part by smart 
Federal policy.
    Good Neighbor Authority, created in the last farm bill, is 
a prime example of one of those policies. As you know, the 
program authorizes State foresters to carry out restoration and 
logging projects on Federal lands. DNR used this new authority 
to put up 1,300 acres of Federal land for timber sales in 2016 
and 1,800 acres this year. Good Neighbor sale acres are 
expected to increase in future years as we gain experience with 
this new program.
    I am happy to report that work began just this week on a 
Good Neighbor sale on the Hiawatha National Forest where the 
logging is being done by a small, family-owned, Upper Peninsula 
company based in Rapid River.
    Whether it was assuring Arauco that their mill would have a 
steady supply of logs or this week's timber sale that gave 
loggers out of Rapid River a new contract, the farm bill Good 
Neighbor Authority is creating new and good-paying jobs right 
here in Michigan.
    To help us build on that success, DNR and the National 
Association of State Foresters recommends that Congress 
slightly amend the program to allow for repair of existing 
national forest roads in the 2018 reauthorization. The current 
program excludes road maintenance from the projects that Good 
Neighbor allows, thereby limiting the amount of acres that DNR 
can treat. The flexibility to conduct road maintenance will 
allow us to restore even more acres and to support increased 
economic development in forested communities.
    Moving on to other policy areas, I would like to draw your 
attention to a more systemic issue which has the potential to 
undermine many of our other forest management tools. That issue 
is the broken Forest Service budget, and it is profoundly 
hurting not only the national forests but also State agencies 
like Michigan DNR and private landowners.
    During my 8 years working for the Forest Service and my 23 
years with the Michigan DNR, I helped suppress several large 
wildfires in Western States and in Michigan. My experience has 
taught me that the old Forest Service budget model is not well 
suited to face the actual costs of modern-day wildfire threats. 
We strongly encourage Congress to enact a comprehensive fix for 
the Forest Service budget, either in the context of the 2018 
Farm Bill or elsewhere.
    Finally, I wanted to conclude my testimony on a positive 
note by drawing the Committee's attention to a relatively new 
forestry-based commercial building material referred to as 
``mass timber.'' Mass timber panels are different than normal 
building materials in that they arrange traditional dimensional 
lumber in a new and stronger fashion using state-of-the-art 
engineering, a specialized press, and advanced adhesives. We 
encourage the Committee to enact policies that support mass 
timber products, like Senator Stabenow's Timber Innovation Act, 
which will create new jobs in our rural forested communities.
    Once again, thank you for the opportunity to share my 
perspective with you this morning.
    [The prepared statement of Mrs. Matson can be found on page 
105 in the appendix.]
    Chairman Roberts. Thank you, Mrs. Matson.
    Batting cleanup is Bob Hance.

STATEMENT OF BOB HANCE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
    MIDWEST ENERGY AND COMMUNICATIONS, CASSOPOLIS, MICHIGAN

    Mr. Hance. Thank you, Chairman Roberts and Ranking Member 
Stabenow, for inviting me to testify today. My name is Bob 
Hance. I am the president and CEO of Midwest Energy & 
Communications, based in Cassopolis, Michigan.
    ``Vibrant, relevant, and sustainable rural communities''--
that is our vision statement. I suggest it is appropriate for 
all rural electric cooperatives. While our history is firmly 
rooted in delivering reliable, affordable electricity to our 
members, our purpose is much greater. We are the engines that 
drive economic opportunity across rural America, creating jobs 
and improving the quality of life for millions. That is why the 
farm bill is essential. It contains important rural development 
tools that support our efforts to strengthen our communities.
    For over 80 years, loans from the Rural Utilities Service 
have helped build and improve the infrastructure across rural 
America necessary to provide power, deliver clean water, and 
deploy advanced telecommunications technologies. It has been 
the most successful public-private infrastructure investment 
program in the history of the country.
    In 2015, Midwest was one of the first electric cooperatives 
in the country to access the RUS Smart Grid loan program. With 
a $60 million RUS loan, we are constructing more than 2,000 
miles of fiber infrastructure that will improve grid security, 
help consumers manage their energy consumption, improve system 
reliability and operational performance. Leveraging that 
investment, Midwest has been able to use other non-RUS 
financing to deliver fiber speed voice and data solutions to 
our largely unserved and underserved rural membership.
    Geography should not define your scope of personal and 
professional opportunity in 2017, but there is a pervasive 
digital divide in the rural space. We are changing that. We now 
have more than 4,000 members using our fiber Internet solution, 
and we receive daily affirmations of the importance of this 
project.
    We are changing the landscape of opportunity for rural 
Michigan, affording the opportunity for members to participate 
in the digital space just like their urban counterparts. This 
means access to health care, education, and jobs. The RUS Smart 
Grid Initiative is providing long-term transformational 
benefits to your rural Michigan constituents.
    Besides the RUS loan program, the farm bill includes other 
important rural development tools like the Rural Economic 
Development Loan and Grant Program, or REDL&G, which is an 
economic tool used by many Michigan electric cooperatives. It 
has helped create hundreds of new jobs across the State over 
the last couple of decades.
    As an example, Cherryland Electric, our sister co-op in the 
Grand Traverse region, worked with RUS to secure a $57,000 zero 
interest loan through REDL&G to Great Lakes Potato Chip to 
provide additional slicers, scales, conveyers, and other 
associated equipment to support the organization's continued 
growth. This loan supported the company's move to a second 
shift with 10 new jobs in rural Michigan. I can attest that 10 
new jobs in rural Michigan is a meaningful number and that 
REDL&G was a key component in that growth. There are a dozen 
other REDL&G stories like that.
    Michigan co-ops are actively using Rural Energy for America 
Program, or REAP, to implement efficiency programs and 
integrate new renewable sources. Just last year, Spartan 
Renewable Energy secured a $500,000 REAP grant to help 
construct Spartan Solar, one of Michigan's largest community 
solar projects. Several hundred Michigan co-op members have 
already purchased panels. It is an exciting project.
    Senator Stabenow, I know this program was a big priority 
for you, and you played an important role in securing REAP 
funds for the project. Thank you very much.
    Electric co-ops continue to enjoy a productive partnership 
with the Federal Government to promote the health of rural 
America. We look forward to continuing to work with you toward 
that important goal. Thank you, and I look forward to any of 
your questions.
    [The prepared statement of Mr. Hance can be found on page 
77 in the appendix.]
    Chairman Roberts. Bob, thank you very much.
    Debbie and I were just mentioning here--we were paying very 
close attention to you; do not worry about that--that we could 
probably have 10 questions for every witness, the first panel 
and this panel. You all have had excellent testimony. I want to 
make it very clear that all of this testimony will be part of 
the written record. I am going to share the testimony we got in 
Manhattan, Kansas, of 21 witnesses and the testimony we have 
here in Michigan, and I am going to share it with all the 
members on my side of the aisle, and I know Deborah will do the 
same thing with hers. I think that every member will want to go 
over that very, very carefully.
    So in the interest of time, I am going to ask you one 
question. Somebody has to be the bad news bearer. I do not like 
being a bad news bearer, but this is for the entire panel, and 
I am not going to ask each of you to respond, but if anybody 
feels like it, they can.
    You have all given valuable testimony, and you have all 
supported the various programs across all titles of our farm 
bill. Some of you have shared recommendations for increased 
funding. That is natural. You are doing a good job. You would 
like to have increased funding. I would like for you to have 
increased funding, and so would Deborah.
    This might be a tough question for both you and for us in 
Congress, but the reality is we are going to have to do more 
with less. That is just the way it is. I mentioned the number 
19, it is soon going to be 20, and then 12 zeroes. We cannot go 
on like this. We have to do our share. We would like to think 
that we have done our share. But there are others in the 
Congress that certainly think otherwise.
    Even to merely extend the current farm bill as is, we are 
in a constrained budget environment, so there are challenges 
with regards to any increasing program dollars. What we give to 
some section, some title of the farm bill, we are going to--
there is a pay-for we are going to have to find with 
efficiencies. We do not like the word ``cut,'' but that is the 
way it is.
    What policy changes should we make that would provide 
greater administrative flexibilities and efficiencies so we can 
achieve some budget savings? Anybody raise their hand here? 
Yes, Mr. Rorah.
    Mr. Rorah. Just on the CRP, we believe that increasing 
flexibility within the program to allow landowners, ranchers 
and farmers to do more wildlife-friendly haying and grazing, 
can stretch available CRP dollars out and cover more acres than 
are covered currently.
    Chairman Roberts. I appreciate that. We can do that with 
existing authority, and we have done it in times of need, and 
we are going to sure look at it in Kansas. Thank you for that.
    Anybody else? Yes, sir, Mr. Hance.
    Mr. Hance. To your point on efficiency in the Federal 
Government and the opportunities that are there that, I would 
argue, are maybe being misused, we have been trying to gain 
access to the Connect America Fund for the last 5 years. It is 
a $2.5 billion fund that would benefit rural America 
substantially with advanced telecommunications across the 
country. It seems to be reserved for incumbent providers, and 
it would be great if somehow it would actually get to rural 
America.
    Chairman Roberts. Anybody else? Yes, sir, Dr. Hesterman.
    Mr. Hesterman. Yes, it seems to me that there could be some 
efficiencies gained by us figuring out how to combine some of 
the programs that are focused on local, regional, urban 
agriculture together, and instead of having many, many 
different programs, we may be able to combine some and create 
efficiencies there.
    Chairman Roberts. That is an excellent suggestion.
    Faith, do you have any suggestions?
    [No response.]
    Chairman Roberts. I am not picking on you. I am just sort 
of picking on you.
    [Laughter.]
    Senator Stabenow. I think Mrs. Hebron had her hand up.
    Chairman Roberts. Yes?
    Mrs. Hebron. Yes, thank you. I would just echo what Dr. 
Hesterman said about the combining of the programming for local 
and urban ag. You know, being new, a lot of the programming 
opportunities have not been designed for urban agriculture, and 
we are growing, and so just being able to access and recognize 
that our work is a little different in communities, making that 
combination so that it is more reachable for us.
    Chairman Roberts. Anyone else?
    Ms. Watson. I think I might have something. I think it 
would be echoing what has been said, just the collaboration. I 
think it cannot be left to one sector to handle hunger and all 
the other issues that are--speaking from food and nutrition, I 
think addressing poverty, addressing hunger, there has to be 
collaboration and communication across the board, like 
churches, nonprofits, Government. Somehow there has got to be 
that collaboration that everybody does a different part, and if 
we work together, the funds can go further. There is a lot more 
than just hunger. There are physical needs, there are emotional 
needs, mental needs, spiritual needs, and all the different 
sectors can work together if they try.
    Chairman Roberts. Well, thank you, Faith, for that.
    My personal favorite is the one that Chris brought up about 
somebody who is really concerned about the number of wildlife 
that is crossing his farm. I will volunteer for one week.
    [Laughter.]
    Chairman Roberts. That is just goofy. But, anyway, thank 
you all for your testimony. Senator?
    Senator Stabenow. Well, thank you, Mr. Chairman. We are 
abbreviating questions on this panel only in the interest of 
time because of a flight commitment. So let me first start with 
Ms. Watson. Thank you for being here and sharing your story. I 
do want to reiterate the fact that with policies we put in the 
place in the 2014 Farm Bill, the Budget Office has indicated 
major savings because the economy is improving; more jobs are 
being created, people are going back to work, so the family 
safety net, and the Supplemental Nutrition Assistance Program 
will save $80 billion. SNAP works. We have two safety nets. We 
have a farm safety net and a family safety net. Because the 
economy is getting better there are more opportunities and we 
wish you well as you are working hard, but as the dollars you 
are receiving to feed your family goes down as your income goes 
up, that indicates how the program is working. This is a good 
thing.
    We know on the farm safety net side that prices are down. 
They were high when we wrote 2014 the farm bill. Commodity 
prices are down now so we have issues to address on that end.
    I also know, in listening to all of you, that what you are 
talking about is creating jobs, whether it is in rural 
development--and, by the way, if we have more time, Mr. Hance, 
I would talk about broadband, which ought to be connecting 
everybody everywhere. Instead of the farmer at the end of the 
road being connected to the telephone, it is now broadband and 
Internet. We have work to do to make sure we have kids coming 
back and staying in small towns. They are going to need to have 
access to high-speed Internet. Connectivity is a big concern 
also for hospitals and all other rural businesses.
    If we talk about forestry and the jobs streaming from that 
industry, or if we talk about the growing area of organics, or 
about urban agriculture, all of these areas are a great 
opportunity for jobs. Mrs. Hebron, thank you for all that you 
are doing to take the extra land in Detroit and the need for 
fresh food, and turn it into a project that creates jobs and 
grows fresh local food. That is part of the grit in 
agriculture, and I am so grateful that all of you are doing 
that. We could talk forever about conservation and research, 
but I am only going to ask one question. Senator Roberts asked 
one.
    As we conclude, I want to thank everyone here. When the 
situation in Flint happened with the high lead levels in 
drinking water and over 100,000 directly exposed to this heavy 
metal it was Michigan agriculture that came forward first. It 
was Michigan Milk Producers that stepped up and donated milk. 
It was fruits and vegetable growers that helped by donating 
excess food to salad bars in schools. I have learned more about 
lead exposure than I ever thought I would in my entire life. We 
know that for children this exposure is extremely damaging and 
continues their whole life. The only way you can mitigate and 
overcome lead exposure is through good nutrition.
    I want to thank you, Dr. Hesterman, for coming in and 
working to expand to grocery stores, farmers markets and so on. 
I wonder if you might take a minute to talk about how you are 
integrating SNAP redemption at farmers markets and groceries. 
This goes to, again highlight, the partnerships built around 
agriculture, local foods, and access to food.
    Mr. Hesterman. Thank you, Senator Stabenow. What we were 
able to do with the support of the State of Michigan, MDARD, as 
well as USDA and private foundations, is to really expand the 
Double Up program in Flint. It had been in the farmers markets 
since 2011, but we have expanded it to now eight sites, all 
kinds of retail sites around Flint, grocery stores, farmers 
market, and some mobile markets where you move the produce to 
where it is needed in the city. We got the program going year 
round. We know those kids need access to fresh fruits and 
vegetables all year round, so we made it not a seasonal program 
but year round. Because Double Up has a uniform design, we were 
able to create a citywide communications program. So outreach 
in all kinds of ways, through social media, through on-the-
ground outreach, billboards, bus signs, direct mail, really get 
the word out.
    But what we think really made the difference was the 
technology that got developed for Flint. That is the first in 
the Nation and now spreading to other places where folks can 
get this Double Up Food Bucks card. This card can be used at 
the farmers market, the grocery store, the mobile market. We 
call it ``interoperable,'' and it makes the customer experience 
really convenient and easy for Double Up Food Bucks. So 
somebody can earn their Double Up Food Bucks by purchasing 
produce at the farmers market, spend the Double Up off those 
cards at the grocery store, or the other way around.
    So the results in just less than a year, over twice as many 
dollars being used to purchase fresh produce in Flint with 
Double Up than the year before, and we are now reaching over 25 
percent of the SNAP population in Flint with this program.
    So we are really proud of all--it took a lot of 
partnerships to do that. We are proud of that. We are going to 
keep it going because it is needed there.
    Senator Stabenow. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Roberts. Well, thank you again to all of our 
witnesses for joining us here in Michigan. We appreciate you 
sharing your experiences, your thoughts--good thoughts, good 
suggestions. Thank you to those in the audience, everybody 
present, those who have listened from around the country for 
your interest, especially on a Saturday.
    When I took the gavel 2 years ago, I indicated that our 
Committee is the voice of the producer, and we both declared 
that we were champions on behalf of agriculture. Our Committee 
will not only provide folks a platform to spread the word about 
the value of production agriculture, but also be the forum for 
our farmers, our ranchers, and consumers, and rural communities 
to participate in shaping the next farm bill. This is just 
another step in doing that.
    Today we have continued that important process. We have 
heard about agricultural research, crop insurance, the 
diversity of American agriculture, and some of the other 
policies that we are working on as well. We have heard about 
the burdens of Government regulation, from Mr. Alpers, and 
programs where we need to raise more questions and craft 
solutions, from Faith.
    We will continue to listen to farmers, ranchers, and other 
stakeholders across the country at additional hearings in 
Washington. We have less than 2 years to pass the next farm 
bill. We have our work cut out for us.
    A lot of my producers out west, way out west in Kansas, I 
had one old boy come up to me, and he pulled down on his cowboy 
hat and said, ``Pat, I do not care what you do to me. Just let 
me know.''
    [Laughter.]
    Chairman Roberts. That pretty well simplified it under the 
banner of predictability and stability. To get the farm bill 
done in the Congress of the United States is a difficult task. 
It is a tough trail. We are going to try to do this in a manner 
that could hopefully provide some predictability because of the 
tough times that we are facing. But we have our task, as I 
said, that lies before us.
    But I know, in working with Senator Stabenow in the past, 
and other members of the Committee, I know, I have no doubt, 
that we can craft a bill for producers across the countryside, 
and we can do it in a timely manner so that you will know and 
be able to continue the good work that you are doing.
    This Committee stands adjourned. I have to get on a plane 
to get into Dodge, not out of Dodge.
    [Laughter.]
    Senator Stabenow. Thank you, Mr. Chairman. All right.
    [Applause.]
    [Whereupon, at 12:40 p.m. Eastern Time, the Committee was 
adjourned.]

      
=======================================================================


                            A P P E N D I X

                              MAY 6, 2017
      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                              MAY 6, 2017
      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


                         QUESTIONS AND ANSWERS

                              MAY 6, 2017
      
=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                    [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
